<html>
<title> - [H.A.S.C. No. 111-167]WIND FARMS: COMPATIBLE WITH MILITARY READINESS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-167]

 
            WIND FARMS: COMPATIBLE WITH MILITARY READINESS?

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 29, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
61-770                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>  
                                     
                       SUBCOMMITTEE ON READINESS

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland     CHARLES K. DJOU, Hawaii
BOBBY BRIGHT, Alabama
JOHN GARAMENDI, California
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia
                Dave Sienicki, Professional Staff Member
                 Jamie Lynch, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                   Christine Wagner, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, June 29, 2010, Wind Farms: Compatible with Military 
  Readiness?.....................................................     1

Appendix:

Tuesday, June 29, 2010...........................................    33
                              ----------                              

                         TUESDAY, JUNE 29, 2010
            WIND FARMS: COMPATIBLE WITH MILITARY READINESS?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Subcommittee on Readiness..............................     3
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Kalinowski, Nancy B., Vice President, System Operations Services, 
  Air Traffic Organization, Federal Aviation Administration......     8
Robyn, Dr. Dorothy, Deputy Under Secretary of Defense, 
  Installations and Environment, U.S. Department of Defense......     4
Stutzriem, Maj. Gen. Lawrence, USAF, Director, Plans, Policy and 
  Strategy, North American Aerospace Defense Command and U.S. 
  Northern Command...............................................     7
Webster, Stu, Co-Chairman of the Siting Committee, American Wind 
  Energy Association.............................................     9

                                APPENDIX

Prepared Statements:

    Kalinowski, Nancy B..........................................    49
    Ortiz, Hon. Solomon P........................................    37
    Robyn, Dr. Dorothy...........................................    42
    Webster, Stu.................................................    56

Documents Submitted for the Record:

    Slide: Expected Interference Obscuration at NAS Kingsville...    71

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    75
    Mr. Forbes...................................................    75
    Mr. Ortiz....................................................    75

Questions Submitted by Members Post Hearing:

    Mr. Blumenauer...............................................    87
    Mrs. Halvorson...............................................    86
    Mr. Nye......................................................    85
    Mr. Ortiz....................................................    79
            WIND FARMS: COMPATIBLE WITH MILITARY READINESS?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, June 29, 2010.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
        FROM TEXAS, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Ortiz. This hearing will come to order.
    I want to thank our distinguished witnesses for appearing 
before this subcommittee today.
    Today, the Readiness Subcommittee will hear about wind farm 
development and its impact on military readiness. Overall, I am 
committed to renewable energy and the benefit it provides to 
the environment, the economy and, of course, our country. 
However, this project should not be pursued at the expense of 
military readiness.
    Wind energy is a prime example of renewable energy. And 
although it is currently only 2 percent of domestic electricity 
supply, it is the fastest growing source of new energy 
generation in our country.
    According to the Department of Energy, the United States 
has enough wind resources to generate electricity for every 
home and business in this Nation, but not all areas are 
appropriate for wind energy development.
    Today, the industry is generating 14 times more wind energy 
across the United States than only 10 years ago. This increase 
is only expected to continue.
    There are a variety of factors that contribute to the 
growth of wind energy, and one of the most prominent being 
Federal subsidies and stimulus money available to the industry.
    A Department of Energy grant program entitled developers of 
renewable energy to 30 percent reimbursement of the cost of 
building a facility. Wind power projects were the largest 
sector, receiving 86 percent of the nearly $2.6 billion that 
was disbursed.
    But what stipulations are attached to the funding to 
protect military readiness? Of course, the interest of our 
readiness so that we can be ready in case that we need to 
defend ourselves and our allies.
    The rise of wind farms could not be more apparent than in 
my home state of Texas. We lead the country in wind power 
capacity and generate one quarter of the Nation's entire 
production, or approximately 9,000 megawatts. This is enough 
electricity to power more than 2.5 million homes for one year. 
In my district alone, the stimulus bill provided more than $440 
million in direct contributions to wind farms.
    With the rise of wind energy, industry continues to seek 
attractive development locations, some of which are too close 
to military installations. A great example of this type of 
development is in my district at the Naval Air Station in 
Kingsville, Texas.
    As one can see in this slide showing on the screen, wind 
farms will significantly impair the ability of the Kingsville 
radar system to monitor and detect small aircraft like those 
flown at the Naval Air Station.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Ortiz. We must ask ourselves, is this a problem? It is 
a serious problem. Is there anything that we can do to preserve 
the military capabilities threatened by wind farm development 
at the Naval Air Station in Kingsville and other military 
bases? In the short term, no. Am I concerned? You bet, I am 
concerned.
    The Department of Defense has increasingly engaged to 
express reservations or objections to potential energy projects 
based on military readiness issues, specifically identifying 
conflicts with radars and existing training routes. Each 
application for wind farm development is reviewed by the 
Federal Aviation Administration in coordination with the 
Department of Defense.
    However, I am deeply concerned about the lack of a 
coordinated, well-established review process within the 
Department of Defense to provide timely input for these green 
energy projects.
    As a committee, we address this concern in the fiscal year 
2011 National Defense Authorization Act and look forward to 
working with the Senate to refine the final language in 
conference. I don't consider it to be in our government's best 
interest to stunt the growth of this critical industry, nor to 
expand wind farm development at the expense of military 
readiness.
    There are many different facets of this issue and a variety 
of stakeholders. As subsidies continue and the industry 
continues to grow, it is imperative to increase coordination 
between the Department of Defense and the Department of Energy 
on these efforts.
    Beyond government coordination, industry as a whole needs 
to take ownership of their role in diminishing the impacts of 
wind farms on military readiness, and increase innovation to 
reduce conflicts with military radars and training routes. To 
that end, I want to hear what specific actions the government 
and industry partners are taking to, number one, improve the 
review process, to identify mitigation efforts, and invest in 
research and development solutions.
    I want to conclude my opening statement by restating my 
commitment to pursue all energy solutions in partnership with 
the Administration but not, again, at the expense of military 
readiness.
    Ladies and gentlemen, I think that we have a lot to discuss 
today, and I look forward to hearing you address these 
important issues.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 37.]
    The chair at this moment recognizes my good friend from 
Virginia, Mr. Forbes, for any remarks that he would like to 
make.

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
      VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Mr. Chairman, as always, I thank you for your 
leadership, and I thank all of our witnesses.
    Dr. Robyn, it is great to see you here again.
    General, it is good to have you here with us.
    And to both of our other witnesses, we appreciate your time 
and expertise in coming this morning to testify.
    This is a topic that we are all particularly excited about, 
especially the possibility of harnessing wind energy, because 
the chairman and I, I think can both agree that we have an 
abundance of excess wind right here in the Capitol that we 
would love to use in a more beneficial manner. And I know all 
of you have suggestions for us.
    But even if we fail there, I don't think there is any 
question that the United States needs to do more to develop 
renewable energy sources. And wind farms are the most 
attractive options for truly clean renewable energy.
    Recently, wind farms have grown significantly in 
popularity, so it is important that we take the time to 
carefully evaluate the placement of wind farms around the 
country because, like a lot of things in life, wind farms are a 
mixed blessing; clean renewable energy but also an impediment, 
as the chairman has mentioned, to military readiness and 
homeland defense.
    The chairman has also mentioned and our witnesses will also 
cover in some detail wind farm impacts. I share his concerns, 
which were raised in some detail at a subcommittee hearing 
earlier this year. I believe that wind farm development, while 
important to our national energy security posture, must not be 
allowed to impede military readiness, and I think all of us 
agree with that.
    The Department of Defense's real concerns have to do with 
the interference of their defense radar ringing the entire 
Nation as well as the obstructions created on low-level 
military training routes that criss-cross vast areas of the 
interior United States posed by wind farm development.
    As it stands today, the Department lacks a one-stop shop 
for determining impacts, leading developers to be unsure of 
where to turn. As we have seen, mere proximity to a military 
installation is only the beginning of the story. The most 
obvious place for DOD [Department of Defense] to start is with 
a streamlined, transparent process that provides developers 
some guidelines for turbine placement and some certainty that 
their applications will receive a timely and credible review.
    Unfortunately, the current process forces the Federal 
Aviation Administration [FAA] to solicit and represent DOD in 
the review. While the FAA clearly needs to be involved in the 
placement of 500-foot tall structures, that agency should not 
be forced to represent DOD equities.
    I look forward to hearing from all of our witnesses on 
constructive ways to improve the process in order to speed 
approval of wind farms that do not interfere with our national 
security or military readiness.
    And again, Mr. Chairman, I thank you for scheduling this 
hearing. I yield back the balance of my time.
    Mr. Ortiz. Thank you, sir.
    Today we have a panel of distinguished witnesses 
representing a good cross-section of views, including the 
Department of Defense, the Federal Aviation Administration, and 
the industrial perspectives.
    Our witnesses include: Dr. Dorothy Robyn.
    Doctor good to see you again. Welcome.
    She is the Deputy Under Secretary of Defense for 
Installations and Environment, Department of Defense.
    And Major General Lawrence Stutzriem, Director of Plans, 
Policy and Strategy for North American Aerospace Defense 
Command and the United States Northern Command.
    General, welcome, sir.
    Ms. Nancy Kalinowski. Sounds very Spanish to me. I hope I 
pronounce it right. She is the Vice President for System 
Operation Services of the Air Traffic Organization in the 
Federal Aviation Administration.
    And Mr. Stu Webster, Co-Chair of the American Wind Energy 
Association Siting Committee.
    Without objection, the witnesses' prepared statements will 
be accepted for the record.
    And Secretary Robyn, welcome. And it is good to see you, 
and you can begin whenever you are ready.

   STATEMENT OF DR. DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF 
  DEFENSE, INSTALLATIONS AND ENVIRONMENT, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Robyn. Thank you, Mr. Chairman, Congressman Forbes.
    It is great to be here talking about an issue that General 
Stutzriem and I have spent quite a bit of time dealing with in 
recent months. It is an important issue.
    As you have explained in your opening statements, wind 
turbines can under some circumstances create interference and 
clutter that reduces the sensitivity and performance of radar, 
particularly older radar. The vast majority of all proposed 
wind turbines raise absolutely no concerns for the Department 
of Defense. In a small fraction of cases, however, we do have 
concerns, and that number could grow as wind energy development 
expands.
    The problem arises in three different contexts. The first 
involves the long-range radars managed by NORAD [North American 
Aerospace Defense Command] and U.S. NORTHCOM [Northern Command] 
to maintain air space surveillance and air defense.
    Second, turbines can affect DOD's ability to test a new 
weapons system, which requires an electromagnetically pristine 
environment in which to collect performance data.
    Third, Mr. Chairman, nearest and dearest to your heart, the 
Department's training mission can suffer if air traffic control 
radars used to train pilots are degraded by interference.
    Two key factors aggravate what would otherwise be a much 
more limited problem. First is the aging nature of our radar 
infrastructure. Our long-range radars are particularly old, 
decades old. Many still use analog technology, which has 
limited ability to filter out wind turbine clutter.
    Second, the FAA's siting review or its OE/AAA [Obstruction 
Evaluation/Airport Airspace Analysis], process, on which we, 
the Department, rely to identify and prevent potential 
interference problems, is itself a kind of a legacy system. It 
was developed in the 1960s with a focus on airspace safety, and 
has not been updated to take account of current national 
security needs and operations.
    Most significant, a developer only has to give the FAA 30 
days notice of the start of construction of a wind turbine or 
other object. This is generally adequate for the FAA's 
purposes, but if we raise a concern at that late stage, 
particularly on something like a large wind farm for which the 
developer has by then gotten environmental permits, typically 
hundreds of millions of dollars of investment, we can create 
serious financial and execution challenges for the developer.
    The wind turbine radar interference problem is a serious 
problem, but it is a largely solvable problem. Our country 
should not have to choose between national security and the 
development of renewable energy. The key is to improve our 
legacy systems, both the regulatory one as well as the 
electromagnetic one. Let me focus on three points.
    First and most immediately, the Federal Government needs to 
improve the process for reviewing renewable projects so that 
potential interference can be identified early and mitigated 
more easily. Toward this end, and consistent with your proposed 
legislation, we are working to stand up a central DOD 
clearinghouse to which developers can come on a voluntary basis 
early in the development process for our review of a proposed 
wind energy project. Our goal is to create a streamlined, 
transparent, and layered process, one that can approve easy 
cases quickly and apply increasingly sophisticated tools, 
analytic tools, to the harder cases. Among other things, we are 
looking at whether we need statutory or other authority in 
order to protect proprietary project information, which is a 
necessary requirement if we are going to have developers come 
to seek us out.
    Second, key Federal agencies, including DOD, need to 
realign their research and development priorities to give 
greater attention to this issue. Technology must become one of 
the military's primary means of protection in this domain, just 
as it is in many other domains. Toward this end, the White 
House Office of Science and Technology Policy has recently 
convened an interagency group to develop an R&D [Research and 
Development] plan in this area. And the Air Force recently 
entered a cooperative R&D agreement with Raytheon aimed at 
identifying hardware and software improvements that will make 
radar less susceptible to wind turbine interference.
    Third, Federal agencies need to look at the current plan 
for upgrading the older surveillance radar. At least two 
questions merit analysis: One, is the current schedule for 
upgrading the radar sufficiently aggressive? For example, many 
of our older long-range radar will not go through this upgrade 
process, called a SLEP, Service Life Extension Program, until 
2014. And, second, will the technology slated for insertion as 
part of that SLEP process do an adequate job of mitigating wind 
turbine interference? And I will return to that point in a 
minute.
    To illustrate the importance of technology, let me briefly 
mention a 60-day study by MIT's [Massachusetts Institute of 
Technology] Lincoln Laboratory which we are releasing a summary 
of today. It was completed last week. They briefed the 
Department on it Friday and yesterday, and we have made a one-
page summary available to you. And we are in the process of 
scheduling briefings, which will be at the secret level.
    Lincoln Lab focused on a long-range radar in Fossil, 
Oregon. It is called the Fossil ARSR-3. ARSR stands for Air 
Route Surveillance Radar. Fossil refers to the nearby town in 
Oregon, not to the age of the radar. It is old, but it is not 
that old. The Department asked Lincoln Lab to do this analysis 
in late April during a controversy that I think you all are 
familiar with over a proposed 338-turbine wind farm project in 
Oregon, Shepherds Flat. We, the Department, withdrew our 
initial objection to the project partly, I would say, actually 
largely, in the belief that Lincoln Lab could identify ways to 
mitigate the interference during the period that the turbines 
were being constructed.
    And Lincoln Lab did not let us down. Their options, based 
on actual experiments they ran on the Fossil radar, range from 
adjusting the settings to optimize the existing technology to 
inserting new technology, such as an adaptive clutter map that 
can edit out false targets. Some of the technologies that 
Lincoln Lab believes hold promise are scheduled for insertion 
as part of the 2014 upgrade or SLEP process.
    We are eager to take the Lincoln Lab proposals to the next 
stage, namely, to engineer and demonstrate them in the field. I 
don't mean to imply they are a silver bullet. They are focused 
on this one particular radar. And the emphasis of our pilot 
effort would be how the new technologies will affect the 
operation of the radar by NORAD and U.S. NORTHCOM. Ideally, we 
would like to use Fossil, Oregon's, long-range radar as our 
test bed, in effect accelerating the SLEP, the upgrade 
improvements that would not otherwise take place until 2014. In 
addition to improving the Oregon radar on an accelerated basis, 
this pilot will yield lessons that we can apply to other ARSR-3 
radars as part of this process.
    In closing, let me say that to maintain military readiness 
and homeland defense, we must protect our irreplaceable test 
and training ranges and maintain our radar-based surveillance 
network. At the same time, the Department supports the 
development of wind energy as a means toward greater energy 
security goals, and we ourselves have been a leader in the 
development of renewable energy. These two sets of goals can 
and should be compatible. I have identified broad changes 
necessary to reduce many, if not all, admittedly not all, 
conflicts. We look forward to working with you to implement 
these changes in the months ahead. Thank you.
    [The prepared statement of Dr. Robyn can be found in the 
Appendix on page 42.]
    Mr. Ortiz. General.

  STATEMENT OF MAJ. GEN. LAWRENCE STUTZRIEM, USAF, DIRECTOR, 
 PLANS, POLICY AND STRATEGY, NORTH AMERICAN AEROSPACE DEFENSE 
               COMMAND AND U.S. NORTHERN COMMAND

    General Stutzriem. Chairman Ortiz, it is great to see you 
again, sir, Congressman Forbes, and members of the 
subcommittee. Good morning. It is an honor to appear before you 
today to discuss the impact of these wind turbines on homeland 
defense, and I am pleased to accompany Dr. Robyn and to 
represent the men and women of NORAD and U.S. NORTHCOM.
    We are responsible for homeland defense, civil support, 
security cooperation, to defend and secure the United States 
and its interests. In all domains: air, maritime, land, our 
focus is on defense of the homeland. NORAD provides aerospace 
warning, aerospace control, and maritime warning in the defense 
of North America.
    The FAA's radars provide us the situational awareness and 
threat detection capability we need to defend the Nation's 
airspace. Under certain circumstances, wind turbines and other 
radar obstructions cause interference that degrades these 
radars, and it jeopardizes our ability to defend the United 
States and Canada.
    Of the 214 FAA radars that provide our domestic radar 
coverage, 13 currently operate with some form of degradation 
due to wind-turbine-induced interference. In 2009, NORAD 
processed 1,789 tracks of interest, including an airplane that 
was stolen from a flight school in Thunder Bay, Ontario, and of 
course the Christmas Day attempted bombing on Northwest Flight 
253. This year, we have already processed over 700 tracks of 
interest. Each track has a unique set of circumstances and 
demands clear situational awareness. Our decision time is 
measured in minutes.
    We know that our Nation's future depends upon a strong 
defense. We also recognize that harnessing alternative energy 
sources is critical to our Nation's future. We understand the 
importance of projects that enable our Nation's energy 
independence, and we fully support their development. We review 
proposals for new developments, such as wind farms, commercial 
buildings, other structures, and assess whether they will 
hinder our ability to keep North America safe. We provide our 
assessment to the FAA, who then renders a determination of 
hazard.
    I want to stress that situations where the FAA renders a 
determination of hazard on our behalf do not occur frequently. 
In fact, we have supported over 87 percent of the 2,196 
proposed wind turbines that we have evaluated since 2008.
    I am also pleased today to be joined by the American Wind 
Energy Association and the FAA, and we, along with other 
organizations within the Department of Defense and Federal 
Government, are actively engaged with the private-sector 
alternate energy organizations to identify best practices and 
improve wind farm siting procedures.
    NORAD and U.S. NORTHCOM are committed to participate in 
this interagency process that evaluates proposals for wind 
farms and other developments with the potential to obstruct 
radar signals. All of this is done with the defense of our 
homeland as our primary consideration.
    Mr. Chairman, I appreciate the opportunity to answer any 
questions you may have.
    Mr. Ortiz. Ms. Kalinowski, you may go ahead. You are next.

   STATEMENT OF NANCY B. KALINOWSKI, VICE PRESIDENT, SYSTEM 
OPERATIONS SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Kalinowski. Thank you very much, Chairman Ortiz, 
Congressman Forbes, and members of the subcommittee. We 
appreciate the opportunity to appear before you today. My name 
is Nancy Kalinowski, and I am the Vice President for System 
Operations Services for the Federal Aviation Administration.
    My office evaluates the impact of proposed construction on 
the National Airspace System and determines whether it is a 
hazard to air navigation. The FAA's mission is to ensure the 
safe and efficient use of aircraft in the National Airspace 
System. Proponents of construction projects must give adequate 
public notice when the proposed structure could impact the 
safety or the efficiency of the National Airspace System. This 
notice provides the FAA with the opportunity to identify the 
potential aeronautical hazards to minimize any adverse impacts 
to aviation. The FAA uses an online tool that allows the public 
to file electronically and to track their proposals online.
    We evaluate approximately 100,000 proposed construction 
filings every year, including wind turbines. Wind turbine 
proposals have grown exponentially. In 2003, the FAA received 
just over 3,000 wind turbine filings. In the first 6 months of 
2010, we have already received close to 19,000 wind turbine 
filings. We expect that number to increase substantially as the 
country prioritizes renewable energy. We have approved over 
100,000 wind turbine projects since 2003.
    Wind turbines present a unique challenge to our agency 
because of the special characteristics and the potential 
impacts on the airspace and our air navigation facilities. In 
the case of wind farm evaluations, each wind farm, each wind 
turbine, is evaluated separately.
    The cumulative effect of the wind turbines on navigable 
airspace will obviously be more significant based on the total 
number of wind turbines grouped together. When the wind turbine 
blades spin, and in some instances it is at more than 200 miles 
per hour, the signal can be picked up by radars as clutter. The 
clutter created by wind turbines can result in the complete 
loss of primary long-range radar detection above a wind turbine 
farm. When a radar system repeatedly sees a return this large 
from its signal, the radar may not be able to detect an actual 
aircraft in the area. Consequently, there are real and 
significant issues that must be evaluated by the government 
before its approval of wind turbine projects.
    How can we address these issues? The Federal Government can 
better serve our interests and those of the energy developers 
by improving the filing and the communication process. FAA is 
continually enhancing its public website to improve the filing 
process and to add tools that assist developers with siting 
wind turbine projects. The FAA also hosts a DOD preliminary 
screening tool that allows proponents to assess if their 
proposed locations for wind turbines would be in an acceptable 
geographic area in relation to radar locations.
    This month, we added a new mapping tool on our website that 
depicts wind turbine determinations issued by the FAA in every 
State. This tool will allow the developers to more easily 
identify areas that are already congested with wind turbines 
and will also identify possible cumulative impact. We have also 
collaborated with the Department of Homeland Security in an 
effort to develop a dynamic, flexible modeling tool to better 
analyze the impact of wind turbines on long-range radars.
    Currently, proponents are required to file a notice with 
the FAA as early in the planning process as possible but no 
later than 30 days before the date of the proposed construction 
is expected to begin. That 30-day time frame has been in place 
for 45 years, and it was appropriate for single stationary 
structures that the FAA largely dealt with in that time and 
since. We certainly support consideration for requiring earlier 
notification to seek a more realistic time frame for the FAA to 
evaluate all the valid aeronautical comments, to review all 
pertinent analytical reports, and to issue determinations that 
take into account all comments and filings.
    We agree with the Department of Defense in its assertion 
that technological improvements and sound research should go a 
long way to addressing the challenges presented by wind 
turbines. Better tools and modeling to ascertain the impact of 
a proposed wind farm on specific radar systems plus more 
advanced cyclical processing to allow the removal of false 
targets will greatly improve the ability to deal with the 
impact on long-range radars.
    We will continue to work with the National Security 
Council, with the Congress, our partners in the Federal 
Government, and all interested parties to develop these 
improvements.
    Thank you for the opportunity to describe FAA's role in 
this very important process. This concludes my statement, and I 
will be happy to answer any of your questions later. Thank you.
    [The prepared statement of Ms. Kalinowski can be found in 
the Appendix on page 49.]
    Mr. Ortiz. Thank you so much.
    Mr. Webster.

STATEMENT OF STU WEBSTER, CO-CHAIRMAN OF THE SITING COMMITTEE, 
                AMERICAN WIND ENERGY ASSOCIATION

    Mr. Webster. Chairman Ortiz, Ranking Member Forbes, members 
of the subcommittee, I appreciate the opportunity to testify 
today on behalf of the American Wind Energy Association [AWEA].
    AWEA represents 2,500 member companies, including project 
developers, manufacturers, construction firms, transportation 
providers, and others. My name is Stu Webster. I am Director of 
Permitting and Environmental for Iberdrola Renewables.
    Iberdrola, which is headquartered in Portland, Oregon, is 
the second largest wind power generator in the United States, 
with more than 3,600 megawatts in operation. We have operating 
wind power projects in more than a dozen States, such as 
California, including approximately 400 megawatts in Chairman 
Ortiz's district in Kenedy County, and we appreciate the 
opportunity to do that.
    Wind energy is a critical national resource. It is 
domestic, inexhaustible, clean, and affordable. Wind energy is 
important for our national security, energy security, and 
economic security, as reinforced in the 2010 Quadrennial 
Defense Review Report. But if we don't have a better system for 
engaging with Federal agencies on radar and airspace issues, 
including improved transparency with respect to DOD analysis on 
impacts and the ability to discuss potential mitigation, then 
wind projects will continue to be imperiled, and we will not be 
able to meet our Nation's energy needs.
    The wind energy industry recognizes that, in some 
instances, depending on location, technology, and radar 
mission, wind farms can impact military operations. However, 
decades of experience in developing wind farms in the U.S. and 
around the world have demonstrated that wind turbines, radar, 
and military training can coexist. The industry has been 
discussing with DOD, FAA, DOE [Department of Energy], and NOAA 
[National Oceanic and Atmospheric Administration] for several 
years possible process improvements, including earlier 
engagement and mitigation options. All parties seem motivated 
now to move beyond talking to implementing those solutions. It 
is AWEA's hope that the ongoing White House interagency process 
facilitates implementation of these solutions.
    For the most part, wind power projects proceed without 
objections from DOD and other Federal agencies. In instances 
when concerns are initially raised, most are resolved after 
discussions between developers and the agency of concern. 
However, as the demand for renewable energy grows, there is a 
resource strain on reviewing agencies, and concerns raised are 
impacting the ability of wind energy projects to be completed 
in a timely manner.
    What makes this issue so complicated is that, due to the 
variety of radars, missions, and airspace needs, there is not a 
silver bullet solution that can solve every potential impact. 
As detailed in the appendices in my written testimony, there 
are many technical mitigation measures, and some of these are 
available today.
    For example, replacing older radar, as roughly 80 percent 
of the Nation's radars are from the 1950s to 1980s era, or 
upgrading software in existing radars has been shown to address 
concerns and accommodate additional wind energy development. 
This was done at Travis Air Force Base in California. And 
recently, the U.K. [United Kingdom] Government and industry 
announced the purchase of a TPS-77 [Tactical Transportable 
Radar System] long-range radar that can distinguish between 
aircraft and wind farms, which will free up approximately 3,000 
megawatts of wind energy.
    Further, many of these solutions can be achieved at 
relatively low cost. A gap-filling radar that costs just 
$250,000 allowed hundreds of additional megawatts of wind in 
Scotland with no decreased levels of detection at the radar.
    In other cases, more research is necessary. For example, 
there has been promising research on stealth composite blades, 
but the technology is not yet validated for U.S. radar systems. 
Federal investment in mitigation R&D needs to be increased to 
validate mitigation options. The goal should be to have as many 
mitigation options as possible, creating a toolbox from which 
different solutions can be pulled depending on the factors at a 
given location.
    Finally, I want to briefly comment on specific language in 
the House Defense Authorization bill. Industry has generally 
supported the language to establish a single entity that will 
centralize the review of wind projects within the DOD. This 
could improve transparency, consistency, and timeliness.
    However, we have concerns with language proposing the 
establishment of military mission impact zones in which it 
would be difficult, if not impossible, to site wind farms.
    In my written testimony is a map with red, yellow, green 
areas. The red represents circles drawn around radar assets at 
30 miles; the yellow, 30 to 90 miles. This type of mapping is a 
blunt tool that can put areas off limits, even if site-specific 
analysis shows that there are no problems. Because of the 
different kinds of radar, different missions, and varying 
terrain, among other factors, it would likely be unnecessarily 
restrictive to establish a one-size-fits-all rule for siting 
near a military asset of concern.
    In addition, there is no requirement in the language to 
balance national security needs with also critical energy 
security needs. Prior to designating a military impact zone, 
the Secretary of Defense should be required to seek public 
comment on the designation, release as many details justifying 
the designation as possible, explain the expected mission 
impact from the renewable energy development that led to the 
designation, and explain any changes to operations and 
technical mitigation options the Department of Defense 
considered before making the designation.
    Finally, AWEA urges the inclusion of provisions requiring 
DOD to consider mitigation options, such as radar upgrades and 
replacements, prior to opposing a wind project. And, there 
needs to be more Federal investment in mitigation R&D. We need 
to solve the challenges the industry and the DOD are facing, 
and not just change how we talk about those challenges. These 
upgrades and replacements will have positive benefits to 
national security and air safety that reach well beyond the 
wind industry alone.
    The growth necessary to achieve 20 percent or more of our 
Nation's electricity from wind, which DOE has determined 
feasible, is unlikely to be achieved without resolving radar 
and aerospace concerns, and these concerns cannot be resolved 
without cooperation between the wind industry and Federal 
agencies.
    To that end, AWEA recommends: One, developing an improved 
process for consulting agencies earlier; two, establishing a 
proactive plan for upgrading radars to benefit national 
security as well as accommodate additional wind energy 
deployment; and, three, investing in significant research and 
development.
    I greatly appreciate your time today. Thank you for the 
opportunity to testify. I am happy to answer any questions that 
you have.
    [The prepared statement of Mr. Webster can be found in the 
Appendix on page 56.]
    Mr. Ortiz. Thank you.
    As it always happens right in the middle of testimony, we 
have a vote. We have two votes coming up. I am just going to 
ask one question for now.
    Ms. Kalinowski, you mentioned that 100,000 projects have 
been approved. Am I correct?
    Ms. Kalinowski. That is correct, sir.
    Mr. Ortiz. Can you tell me how many of these 100,000 
projects are close to military bases?
    Ms. Kalinowski. Not off the top of my head, but I could get 
that information for you.
    [The information referred to can be found in the Appendix 
on page 75.]
    Ms. Kalinowski. In each and every case, the projects that 
were close to military bases or military installations or close 
to the FAA's long-range radars were coordinated with the 
military, and they had the opportunity to comment on it. In 
many cases, we were able to successfully work with the 
proponent and with the military in order to mitigate the 
effects on the radar or on the military installation.
    Mr. Ortiz. Have you all taken into account the old radar 
system that we have that dates back to the 1950s?
    Ms. Kalinowski. Yes, we have. And that long-range radar 
system and the secondary radar system serves the FAA's mission 
quite well in terms of evaluating the safety and the efficiency 
on the impact of the navigable airspace. It is the DOD's 
mission, of course, to use the long-range radars for their 
particular mission for the defense of the country. We work with 
them, and they provide resources to us in order to maintain the 
long-range radar sites to ensure that that ability is there for 
them to complete their mission.
    Mr. Ortiz. You know, one of the things that we worry about 
is that military installations bring jobs to our districts. We 
don't want the military or anybody else to come to us with any 
excuse and tell us, you know what, we are going to have to move 
our base, because you are impacted by the wind farms.
    You know, the amount of wind farms dotting the landscape in 
south Texas is quite amazing to the south and to the north. And 
God knows we need the energy because we hope that--we cannot 
continue to be dependent on foreign energy. But my installation 
at Naval Air Station Kingsville is becoming increasingly 
concerned. Should they continue to be concerned, or do you 
think that we can pacify them because we do have a solution to 
this problem? For anybody.
    Mr. Webster. Chairman Ortiz, I will go ahead and address 
your question. The reality is that the wind energy is a broad 
and diverse group of stakeholders that have varying levels of 
sophistication and understanding about how to go about 
developing a wind project. Iberdrola Renewables has 400 
megawatts in your district near the air station and, as a 
result of our development efforts, sited that facility so that 
it didn't pose an impact.
    To the issue at hand today, the projects that are 
potentially posing or are posing an impact perhaps could be 
remedied not necessarily just by siting changes alone, but the 
changes in the mitigation and the technology that is out there. 
The surveillance community met in October 2008. The wind energy 
was a minor line item in a large agenda that was primarily 
concerned with the sophistication of the technology that they 
are currently utilizing, and it seems like this is a ripe 
opportunity to add the political momentum that wind energy has 
to address a much larger and long-standing concern with the 
surveillance community to upgrade their facilities. In doing 
so, issues such as the air station in your district could be 
mitigated and therefore remedied.
    Mr. Ortiz. You know, we have about less than 3 minutes for 
the next vote.
    Mr. Garamendi, you will be first to ask questions when we 
come back, but I think we should be back soon. It is three 
votes. We are going to recess for a few minutes. And then we 
will come back. I know that your time is very valuable. We will 
try to come back and see if we can continue with this hearing. 
We are recessed.
    [Recess.]
    Mr. Ortiz. Now, we are going to continue with our hearing. 
Let me yield to my good friend for any questions he might have. 
Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And, again, thank you 
to all of the witnesses for your time here today.
    Ms. Kalinowski, you have a very impressive resume. You have 
done a lot of things and there are a lot of things on your 
plate. And unfortunately for you, if something goes wrong we 
find out in a very dramatic manner.
    I was excited to hear you mention not once but twice in 
your testimony about the use of modeling. And I take it that it 
is modeling and simulation that you are utilizing.
    Two questions regarding that. One, are we giving you 
everything you need now to do all of the modeling that you need 
to accomplish your goals? And if not, how can we help you there 
as a Congress? Because I think that is absolutely crucial for 
you to be able to do.
    And the second thing is, how do developers or individuals 
who are doing some of these projects tap into the modeling that 
you have in at an early stage? Because I know you have probably 
some privacy concerns and some things that you don't want to 
allow them to know. Is there some way that they can utilize 
that modeling capability at the front end instead of waiting at 
the back end and finding out, Oh, my gosh, this is having a 
huge negative impact?
    Ms. Kalinowski. Thank you very much for that question, Mr. 
Forbes. I appreciate it.
    We have enjoyed great support from the Congress for our 
resources and we believe that we are using them efficiently and 
effectively, and so we do thank you for your support in that 
department.
    We are also working closely with the Department of Defense 
and the Department of Homeland Security in terms of educating 
ourselves and improving the modeling that we have to bring to 
the challenges of wind farms and understanding the limitations 
of radar.
    We have been very impressed with the Joint Program Office 
and the work that has been done by the Department of Defense's 
office. We refer to them as the 84th RADES [Radar Evaluation 
Squadron]. That is their office that does extensive work and 
modeling on long-range radar and the effect of wind turbines on 
radar. Our technical people, our engineers within the FAA, have 
been working very closely with them to understand the radar and 
to develop and look to the professional community on better 
modeling and simulation. Thank you.
    Mr. Forbes. Thank you. Do we know how many turbines exist 
today? I know you mentioned about 100,000 projects that had 
been approved. Do we know how many actual turbines have been 
constructed and how many do we predict will be constructed over 
the next 5 years?
    Ms. Kalinowski. I mentioned the statistics before. We 
received 1,500 cases to look at this week alone. So it is 
definitely increasing in numbers. I know that the 
Administration and the Department of Energy and Mr. Webster's 
supporting association, AWEA, have hoped that we can move 
toward energy independence by increasing the number. If there 
are 100,000 today that have been approved, I know that their 
hopes are to go upwards to 800,000 in the future. So we are 
gearing up to make sure that the Department of Defense and the 
FAA can address that kind of influx of cases and to analyze 
exactly what their impact would be on military readiness.
    Mr. Forbes. Mr. Webster, do you have any idea currently how 
many turbines we have already constructed? And what is your 
best projection for how many we would expect to have 
constructed within the next 5 years?
    Mr. Webster. Sir, I don't think we have an accurate number. 
We can certainly try and estimate that and get back with you 
and the others.
    [The information referred to can be found in the Appendix 
on page 75.]
    Mr. Webster. I would say that from--this is a very 
difficult issue to address, but the lion's share of the 
proposals that are brought into the FAA, for example, and other 
agencies don't actually become real projects. So while there 
are 100,000 turbines that have been assessed in any given year, 
we are talking somewhere on the order of magnitude less than 
that coming to fruition. So it is a difficult tug and pull, if 
you will, trying to determine, from an agency perspective, what 
is actually going to become an actual project versus what is 
sort of a touch by the industry to try to determine whether or 
not there is going to be an impact in that particular area.
    Mr. Forbes. The chairman and I were talking in the break 
about impacts these could have on our bases and other types of 
things in there. I think it would be useful for us. Just like 
when we are doing planning for highways, it is I think a 
crucial piece of information to know how many cars we think we 
have on the road and how many we would expect to have on the 
road in 5 years. So if you could help us with those numbers, I 
think it would be useful for the committee, even though it is 
not exact, if we can just get our hands around how many we 
think we have got out there and how many is our best estimate 
of what we will have in the next 5 years could be useful 
information for us.
    Dr. Robyn and General, Dr. Robyn made a statement that I 
certainly do not disagree with. You said that we should not 
have to accept a decrease in military readiness to support 
national energy initiatives, or some paraphrase of that. The 
problem is, as we all know, sometimes just from a timing 
sequence, even if we have enough money, we can't get things 
underway; and sometimes with the budget concerns we have today, 
we have a budgetary concern.
    In all of the witnesses' opinions, do you think that there 
would ever be a time that we should accept a decrease in 
military readiness to support national energy initiatives? And 
I don't care who starts, whoever has that opinion, but we would 
just like your thoughts on that.
    Dr. Robyn. I think it is a mistake to frame the problem 
that way, because I think----
    Mr. Forbes. Help me.
    Dr. Robyn. What I said in my statement was the country 
should not and does not have to choose between national 
security and the development of renewable energy. And I think 
what you have heard all of us say is that the two keywords, 
improving the process, which allows for early discussions and 
increases the chances significantly of working out some sort of 
mitigation, and the other is technology. And there is an 
overlap, because so far mitigation largely means moving the 
radar to a different place.
    Mitigation also means changes to the radar itself, 
improvements in the software, improvements in the hardware, 
potentially replacement of the radar. I am not saying that 
every problem can be solved, and even Mr. Webster said there is 
no silver bullet. But we have yet to really bring to bear the 
potential for technological development or insertion of better 
technology.
    Mr. Forbes. And, Doctor, I guess then I kind of take back 
my statement where I agreed with you, because I disagree with 
you. Because I think while it may be our goal that the two 
don't conflict, the real world we live in is that it is not 
just theory. The real world--sometimes it does come down to a 
conflict, either again because of timing--we just can't get 
there quick enough--or because of money. So if you can address 
that. General, do you feel----
    Dr. Robyn. Can I just----
    Mr. Forbes. Sure.
    Dr. Robyn. Let me address each of those, because when I 
said we ought not have to choose----
    Mr. Forbes. I agree with you, we shouldn't have to choose. 
But unfortunately sometimes in this committee----
    Dr. Robyn. Timing is critical. I don't mean to imply that 
you just say ``Okay, we are never going to say no because we 
can figure out how to solve the problem technically.''
    So the key to fixing the process is so that you have the 
time so that we can learn about projects early, work with 
developers to come up with a mitigation strategy, whether it 
involves moving the turbines or improving the radar. But timing 
is absolutely critical.
    The second thing is money. And no one has put this on the 
table yet. I am wishing I had done this in my testimony. These 
wind energy development projects are--they are big and they 
involve a lot of investment and that is a potential--those 
developers are a potential source of improvements in the 
technology. This is something that happens in other areas when 
one person wants to make better use of the electromagnetic 
spectrum and what they are proposing would interfere with 
somebody who is occupying the spectrum; they will pay to 
upgrade their receivers so that their activity doesn't create 
interference. That is very common. There is a market for that. 
We need to develop the same kind of thing here.
    Mr. Forbes. I don't disagree with that. Again, all you guys 
are good guys. It is not a white hat, black hat--these are not 
trick questions. The question, though, at some point that this 
committee just has to keep in mind as our checkoff--and I think 
it is a fair question--is the Department willing to accept 
decreased military readiness to support national energy 
initiatives?
    It is a fair response to say we hope to have both. It is a 
fair response to say we need both. It is a fair response to say 
we hope we don't have to choose between them. But none of those 
are my question.
    My question is if rather it is because of timing or budgets 
or whatever else, beyond any of our controls in here, if we 
have to choose--it is a simple question--would the Department 
be willing to accept a decreased military readiness to support 
national energy initiatives?
    Dr. Robyn. We haven't to date, and I don't think we intend 
to accept a significant level of reduction in military 
readiness, no.
    Mr. Forbes. General, what was your response?
    General Stutzriem. Yes, sir. As you know, I cannot speak 
for the Department of Defense, but as the COCOM [Combatant 
Commander], I can. We, of course, will always do a very serious 
and detailed operational risk assessment based upon 
interference that may be caused by these wind turbines. And it 
is clear that in our mission, we have to be able to detect and 
track and, if necessary, take action on a track of interest 
before it injures or hurts American citizens. So in that risk 
assessment, we will be very sober and objective about risk that 
is unacceptable.
    And in the operational realm, if we have risk that is 
unacceptable, we have to mitigate that down to an acceptable 
level. So in our part of this process, we will be very 
forthright with that analysis which we have focused quite a bit 
in the last few weeks and bolstered.
    However, I do also share Dr. Robyn's comment that some of 
the recent studies in what we see, there is probably a lot of 
technological pieces out there in the future that can help 
mitigate that risk. We will not as a combatant command have any 
kind of gap, however, that is unacceptably managed.
    Mr. Forbes. General, I am sure you are articulating a lot 
better than I am understanding it. So I don't want to push you 
further than you can go. Sometimes we have to just come down to 
hard and fast decisions.
    Is it your opinion that we should ever accept a decrease in 
military readiness to support national energy initiatives?
    General Stutzriem. Once again, that is a policy question 
for the Department. But we will always, from the operational 
level, mitigate that risk in some way.
    Mr. Forbes. General, I will try this one more time. What we 
are told by the Secretary of Defense always, is when we have 
witnesses here, we can ask your personal opinion and we rely on 
this personal opinion. Again, it is not a trick question. It is 
something we need to know.
    In your personal opinion, should we ever accept--I 
understand we want to mitigate, we want to not be there. But if 
it comes down to it, should we ever accept a decrease in our 
military readiness to support national energy initiatives?
    General Stutzriem. Yes, sir. In my opinion, homeland 
defense is our top priority, our mission priority, and that 
should take precedent.
    Mr. Forbes. Thank you. And, Ms. Kalinowski, the same thing.
    Ms. Kalinowski. I can certainly speak for the FAA that we 
would not accept the degradation of the safe and efficient use 
of the navigable airspace. I believe that we at this table all 
want to support a national goal toward energy independence, and 
that also speaks to the Nation's security. Thank you.
    Mr. Forbes. Fair response. And, Mr. Webster.
    Mr. Webster. I would say that we do as an industry--
obviously do not want to see significant or adverse impact to 
our ability as a Nation to protect ourselves and do not 
advocate nor want to promote any notion that the industry feels 
that it is somehow of higher importance than national security.
    That said, the industry does feel along with our 
counterparts in the agencies, that there are real technical 
solutions that can be deployed today, and it is just the amount 
of collective willpower to mobilize that technology to resolve 
these issues so that we do not have that adverse impact 
threshold reached, which to this date, at least according to 
the Concurrent Technologies Corporation's recent report has not 
been reached.
    Mr. Forbes. Thank you all so much for your expertise. And, 
Mr. Chairman, I yield back the balance of my time.
    Mr. Ortiz. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. And thanks to our 
witnesses for being here today. I have a series of questions, 
more or less trying to get an idea in my mind some of the 
parameters of the issues. So I am not even sure I can direct 
them to one person or not.
    But the first question, Ms. Kalinowski, when you talk about 
projects that are being given to us and that you all are 
reviewing, on average how many devices per project, how big of 
an area are these projects? Kind of just the scope of what an 
average project would consist of.
    Ms. Kalinowski. Thank you, Congressman. If you are speaking 
of wind farms, we have dealt with wind farms as small as four 
or five wind turbines, but the average is more along the lines 
of 100 to 200 wind turbines on up to 500.
    Mr. Kissell. And these devices, on average, in size--I had 
read some can be as high--tall as 500 feet. What is the average 
size of one of the wind turbines?
    Ms. Kalinowski. I think Mr. Webster would probably be a 
better person to ask that question, but we have dealt with them 
ranging from 200 to 400 feet.
    Mr. Kissell. Mr. Webster, would that be in the neighborhood 
then?
    Mr. Webster. Four hundred to 425 feet.
    Mr. Kissell. Good. Thank you.
    And, Dr. Robyn, I am going to give these questions to you, 
and then once again feel free to move them to somebody in the 
best place. The issue itself in the radar interference, is it 
more of an issue based upon where the wind farms are and to the 
number of miles to the base? Or is it more of a directional 
issue; or is it an elevation issue; or what creates the 
situation where some wind farms might be a problem and others 
wouldn't be?
    Dr. Robyn. I am an economist, not a physicist. So my 
understanding is--certainly, you see in many places wind 
turbines near military bases with no issue. It becomes a 
problem--it is very case by case. And it can become a problem--
the two key things: line of sight, that is an issue. If the 
turbines are shielded from the radar by the terrain, there is 
not an issue. So, line of sight. And the number of turbines so 
that you can have 500 turbines that do not create an issue. And 
then when you add another 100, their cumulative impact on 
existing technology, particularly the older radar, can become a 
problem.
    Mr. Kissell. And, General, with that said--and once again I 
don't know where is the best place to ask these questions. So 
you have some farms that could be within a few miles and not be 
a problem and others somewhere else that it could be a problem. 
Is it a difference in the radar between--are they more of an 
issue for long-range radars versus short radars? So is it more 
specific, and can we predict, as the modeling that Mr. Forbes 
is talking about, can we predict where we would have a problem 
and not have a problem?
    General Stutzriem. Yes, sir. It does vary from radar type 
to radar type. It is very dependent upon the environment. So, 
for example, I can speak to simply one piece of this which is 
once again the operations risk assessment. We look at that in 
terms of what is that environment around the radar itself. So 
once again, depending upon the sophistication or the technology 
of the radar itself, it may deal with that interference better 
or worse.
    One radar that Dr. Robyn talked about out at Shepherds 
Flat, of course, is an older radar. And it shows a lot of the 
clutter based upon that interference that comes from those wind 
turbines.
    Mr. Kissell. My last question. Well, I will see how my time 
is, whether it is my last question. It would seem to me that if 
you are looking at a huge investment and you know this issue is 
being a problem, that you would want to go to whatever 
authority much sooner than 30 days from the time you want to 
start building this.
    Are we seeing that, that people are coming to us from the 
initial concepts and saying, ``Hey, do you think this is going 
to be a problem?'' Are we seeing any of that?
    Mr. Webster. The industry has largely been increasing its 
level of engagement with the agencies much sooner for the past, 
I would say, 4 years, when this issue first arose to a sort of 
national prominence, if you will. The result of that has been 
largely unanimous recommendation from all of the stakeholders 
that there is no process to engage in.
    So you have situations where a military facility is engaged 
by a single developer. The military facility makes a 
recommendation that there will not be an adverse impact, and it 
isn't until 2 or 3 years later, when a formal review process by 
the FAA is undertaken, that a differing opinion by a different 
entity within the DOD says, ``Actually there is an impact.'' By 
that time millions, if not billions, of dollars have been 
invested in that asset. And then, of course, you clearly have a 
national defense question in mind, so it creates an automatic 
tension between the stakeholders that could have been resolved 
if there had been a process in place.
    Mr. Kissell. Thank you, sir. Thank you, panel. And thank 
you, Mr. Chairman.
    Mr. Conaway. Thank you, Mr. Chairman. Welcome. I appreciate 
you being here. Just to set the record, I represent a district 
that is in the top three or four in the Nation on wind power 
generation. So please don't interpret anything I am saying as 
being anti-wind because it is--some of my wind friends have 
thin skins sometimes.
    Mr. Webster, are all of the sites across the United States 
fully developed and the only ones left to develop are the ones 
that potentially interfere with military operations?
    Mr. Webster. No. There is a variety.
    Mr. Conaway. We have had this conversation this morning as 
if the only ones left out there to be developed were the ones 
that have this potential problem with military readiness. I 
just want the record to show that there are zillions of sites, 
for lack of a better phrase, that have no interference 
whatsoever, that are available for development for the 
industry.
    Dr. Robyn, you mentioned a very interesting phrase or 
concept. What are the barriers to the system? As an example, 
you have got a developer that wants to put some wind towers in 
a particular place; it gets in front of an older radar set and 
that radar would need to be upgraded to mitigate.
    Are there barriers to allowing the developer to say, in 
order to move this project forward, I will pay to have the 
radar upgraded or whatever mitigation costs are needed to 
eliminate the problem that the military is having? Can that 
investor or developer group fold those costs in, or are there 
barriers to letting that happen?
    Dr. Robyn. I think the biggest barrier is that most people 
haven't thought about it that way. We are not used to thinking 
of operating that way. There may be a technical/legal barrier 
to us accepting money from a developer. But I think it is----
    Mr. Conaway. I do, too. It is something that a business 
would do all the time. It is not a foreign concept.
    Mr. Webster, you might have your group look at that 
concept. Obviously if the radars are doing the job that we want 
them to do, and a developer comes in and wants to interfere 
with that, it shouldn't be the responsibility of the taxpayers 
to upgrade the existing facility to meet the need of that 
developer. I would think that if that site is worthy, then it 
could fade the costs of the other development.
    General, throughout the NDAA [National Defense 
Authorization Act], there is immense emphasis on the Department 
of Defense single-handedly eliminating our need for foreign 
oil. We spend a lot of money that way on wind generation, 
alternative sources, all kinds of things. It would be helpful 
to us as decision makers--because I think the Department of 
Defense budgets are going to start looking a lot flatter than 
they have in the last 7 or 8 years--to know what that delta is. 
In other words, what would we pay for energy the traditional 
way versus this emphasis that we have gone across DOD, what is 
that delta and what are we trading? Are we trading MRAPs [Mine 
Resistant Ambush Protected Vehicles]? Are we trading body 
armor? Are we trading a second engine? What is it, so as a 
policy we can say, okay, this cost, these extra costs to the 
system, that doesn't have to be there; it is there only because 
of something else. What are we trading for that? What can we 
use that dollar for? Do you have that number, by chance, or is 
there a way to get at it?
    General Stutzriem. Sir, I don't. And, of course, at the 
combatant command, we establish requirements that are processed 
by the Pentagon. I can take that question for the record and 
route it and get you an answer on that.
    [The information referred to can be found in the Appendix 
beginning on page 75.]
    Mr. Conaway. I do think that the Secretary is looking for 
100 billion over the next 5 years, and we ought to know what we 
are trimming out of the 100 billion.
    I had a report yesterday that the Air Force is going to 
mothball the B-1 bombers and 250 fighters under this cost 
saving hat, not for defense, not for capacity, not for 
anything, just a cost saving hat.
    It would be helpful for us as policymakers next year to 
know what the Department is spending on energy that they don't 
have to spend, but for requirements under the NDAA, 
particularly in the last 3 years. With that, I yield back.
    Dr. Robyn. Sir, is your question how much are we spending 
on energy? The delta----
    Mr. Conaway. Between what we would have spent but for all 
of this emphasis on renewables and the Department of Defense 
doing a lot of stuff that they don't have to do.
    Dr. Robyn. Oh, I would disagree. I was with you up until 
that.
    Mr. Conaway. So you would trade wind power for body armor?
    Dr. Robyn. We very much look at this. I believe it was 
General Mattis during the Iraq War said, ``Please release us 
from the tether of fuel.'' And that prompted a Defense Science 
Board report which said we are losing lives and we are spending 
enormous amounts of money to get fuel to forward operating 
bases. And the cost that we pay for fuel is the tip of the 
iceberg. The real cost is--and our soft underbelly is the 
logistics tail to get that fuel to forward operating bases.
    Insofar as we can use renewable in forward operating bases, 
which we are working on, we can reduce that. And in domestic 
bases, which I oversee, we are vulnerable to disruption of the 
commercial electricity grid and renewable energy combined with 
energy efficiency, smart microgrids, can increase mission 
assurance.
    Mr. Conaway. And that comes in front of other requirements 
that DOD has. We are not making a rational decision because the 
folks out there have just said--that the majority has said over 
the last 3 years, this is an important deal. So you guys have 
gone down that path.
    I have had four-stars tell me that they have to come out of 
hide for all of these extra costs, so they can look green; that 
it is not mission-critical to what they are doing. You are not 
going to power an MRAP with a battery or with a wind----
    Dr. Robyn. You are not going to power an MRAP, but 
renewables have an important----
    Mr. Conaway. You argue with me that the fuel in the 
battlefield is what you are worried about, and I am just saying 
that is not what we are talking about.
    Dr. Robyn. Generate--a significant amount of the fuel that 
is transported to forward operating bases is used to power 
generators, to heat and cool tents, to operate----
    Mr. Conaway. So we are going to build wind towers in Iraq?
    Dr. Robyn. I don't know if it will be wind, but we are 
absolutely spending----
    Mr. Conaway. More money on energy than we would otherwise 
have to spend.
    Dr. Robyn. We have been running a 270-megawatt geothermal 
plant in China Lake for 20-some years.
    Mr. Conaway. And it costs more to do that than to buy the 
energy out of the grid.
    Mr. Ortiz. You can go ahead and answer----
    Dr. Robyn. I think we disagree here. I think it will cost 
the Department money up front to develop renewables. It will 
cost the country money up front. Part of that is because we 
don't put a price on carbon. So we do need to----
    Mr. Conaway. And the science is settled on that, that it is 
an issue?
    Dr. Robyn. Putting a price on carbon?
    Mr. Conaway. Yes. The science is settled on that?
    Dr. Robyn. I think that is an economic question. There are 
huge externalities from carbon emissions which aren't captured 
in the price of fossil fuels. But there is the Quadrennial--I 
point to the QDR, the Quadrennial Defense Review, which says 
that our dependence on fossil fuels, it is a national security 
issue and it is an issue for domestic installations. Renewables 
are not the silver bullet, but they have an important place.
    Mr. Conaway. But you will get me the difference in costs 
that the Department incurs between what they could have done 
normally versus----
    Mr. Ortiz. I think we are going to have time, because we 
have got other members and we will have to have, probably, a 
second round of questions and we will come back to you.
    Mr. Garamendi. Thank you very much, Mr. Chairman. The RAND 
Corporation estimates that about 16 to 18 percent of the total 
defense budget is specifically designed for the purpose of 
protecting the sea lanes in the Gulf of Hormuz so that we can 
have oil. We are at great risk at any moment of that strait 
being shut down, in which case we would have a very serious 
problem in America. So 16 percent--let's just say 15 percent. 
So $120 billion a year for that one purpose, according to the 
RAND Corporation.
    With regard to the issue that we just heard about, it is 
imperative of every one of our bases to become as self-
sufficient for energy as possible so as to avoid the problem of 
a shutdown of the grid.
    This committee has heard testimony on cyberwarfare and the 
potential problems that it presents to us. It is a very 
significant issue. And spending money on renewables at the 
base, conservation at the bases and other ways of making our 
bases both domestic and international, self-sufficient and not 
dependent upon the importation of oil arriving at the 
appropriate moment, is of utmost importance.
    Now, to the issue at hand, which happens to be wind 
turbines and the bases. First of all, I want to thank the 
industry for the work that you are doing in the Travis area, 
the Fairfield area, and the wind energy that is extremely 
important in that area. You have undertaken a joint operation 
with the Air Force at Travis to find ways of dealing with the 
interference that the wind turbines provide, and you are also 
providing money to fund the studies, and that is the way it 
should be done. So I thank the industry for that.
    I also want to, Dr. Robyn, if I might, just ask you about 
efforts that are underway to ameliorate the problem that exists 
with regard to the Travis domestic flight. We are not talking 
about long-range radars here, but rather those that are 
specific for flight control at the bases.
    Could you just comment on the work that is being done, some 
studies that are underway? I understand Raytheon and the United 
Kingdom has a study underway. I think there is a Jensen or 
Jansen report.
    Dr. Robyn. I am not sure I can speak to Travis in 
particular. The work with Raytheon, you may be referring to the 
CRDA [Cooperative Research and Development Agreement] that I 
mentioned in my opening remarks. It was something the Air Force 
entered into just recently, a cooperative R&D agreement, the 
aim of which is to identify hardware and software improvements 
in radar that can reduce wind interference.
    I think that the U.K.--that may be a reference to the TPS, 
the TPS-77 radar, which is a radar that the U.K. feels--it is a 
Lockheed Martin radar, I believe. There is some evidence to 
suggest that it deals fairly well with wind turbine 
interference. We have not yet looked at that closely.
    Mr. Garamendi. If I might just interrupt. It is my 
understanding that the radar systems at Travis are being 
significantly upgraded to deal with the wind turbine--with the 
wind farm nearby, and that it is possible to use enhanced 
software to achieve the necessary air traffic controls for 
that. So if you could deliver to me and perhaps to the 
committee a display of the various activities that are going 
on.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. Most of the testimony we have had here today 
concerns long-range radar systems which are quite antiquated in 
most cases. It is pretty hard to move the wind from one 
location to another. But it may be easier to move the radar, 
particularly if it is an older system that is going to get 
replaced sometime in the future, perhaps with the NextGen [Next 
Generation Air Transportation System] system of traffic, air 
traffic control coming up.
    So I would like to have some comments on that as well as 
the upgrading and the role of the industry in helping to pay 
for it, the concept that was developed here a few moments ago. 
I think it is an appropriate one.
    So, General, if you would start and then the industry and 
then FAA. And we have 3 seconds.
    General Stutzriem. Yes, sir. We work very closely right now 
with a number of Federal agencies, with the developers; when we 
find through our operational risk assessment there is a 
problem, there is kind of conflict. Some of those methods--and 
I think there are a number, besides relocating wind turbines 
outside of line of sight. That would be the most effective. But 
we can change the sighting, the geometry, the spacing to assist 
in reducing those effects.
    Yes, some tuning of the radars are possible based upon a 
growth in clutter across time and the environment. So simple 
maintenance may help. And, of course, we are seeing more and 
more, especially in the urgencies of looking at technology, 
that there are probably software and hardware fixes that can be 
inserted in these older radars that could reduce the impact of 
the wind turbine interference.
    Mr. Webster. Largely there has been some dialogue by the 
stakeholders with respect to moving radars. My understanding is 
that it is largely about as feasible as moving the wind 
projects themselves, which is the other mitigation solution 
that has often has been talked about, both of which I suppose 
are possible but not probable in terms of being effective both 
cost-wise, as well as technology-wise.
    The radar systems were put in place where they were, 
because they optimized our field of vision from a national 
defense perspective as well as from an air traffic control 
perspective. In a similar vein, we put the turbines where we do 
because of the wind being present.
    Again, however, there is a number of opportunities that 
have been discoursed for the past few years that allow us the 
ability to upgrade those radars, and possibly R&D technology 
that can be inputted onto the turbine side of the equation to 
ameliorate the problems.
    Mr. Garamendi. FAA.
    Ms. Kalinowski. Thank you for the question, Congressman. It 
is very expensive to move a long-range radar. Not very feasible 
at all. I think both gentlemen made very good points about 
that. I think our future lies in either a software upgrade, a 
hardware upgrade, or finding other alternatives to essentially 
mitigate the project.
    Mr. Garamendi. Mr. Chairman, in 30 seconds, I do want to 
just make a final comment that the U.S. Air Force together with 
the wind industry, three developers in the Solano area have 
made significant progress on accommodating additional turbines 
and the safety and the air traffic control at a major, major 
base, probably with flights taking off every 90 seconds or so.
    So it can be done. It is software and it is location of the 
radars; and also, most important of all, a willingness to work 
together. And I thank you for what you have been able to 
accomplish there.
    Mr. Ortiz. Thank you. Before I go to the next Member who is 
visiting with us today, let me ask a question now. We were 
talking about at Kingsville a few moments ago. And I know that 
some of you are mitigating some of the circumstances. But I was 
just wondering, Dr. Robyn, can you explain what steps the 
Department of Defense is taking to preserve military readiness 
across the Nation, specifically in Kingsville--and we 
appreciate the energy that you, Mr. Webster, are providing. We 
need it. God knows that.
    But my two bases hit right in the middle of them. If you 
are flying in from San Patricio County, I think you see at 
least, if not 200, maybe more windmills. And then when you go 
south going to the valley, South Padre Island, you see maybe 3- 
or 400 of them.
    What is the Department of Defense doing to come up with 
answers as to how we are going to protect our readiness? Yes, 
ma'am.
    Dr. Robyn. I don't--we have not--I was not aware of the 
Kingsville situation until recently. We have not had--leaving--
I will come back to that one. But I am not aware that we have 
had an issue with wind turbines and training routes.
    Most training routes, most low-level training routes are on 
public land. The process is easier when it is public land. We 
get advanced warning from BLM [Bureau of Land Management] 
typically, or the public land holder. So we have not--I am told 
by our personnel and readiness folks, that has not been an 
issue.
    Kingsville, clearly we need to look at that. The process 
seems to have broken down there because the FAA was not--the 
Navy did not object to the proposed turbines as part of the OE/
AAA process. Nancy can say more about--apparently those radars 
there are not even part of the National Airspace System. They 
are not in the system at the FAA. So the process broke down. I 
would like to look at it more closely, number one; see whether 
there are some lessons from Travis that we can bring to NAS 
[Naval Air Station]-Kingsville.
    Mr. Ortiz. Ms. Kalinowski, would you like to respond or 
give us any input or, Mr. Webster, to the same question?
    What I really want to know--and things are moving pretty 
fast. When you say that hundreds of thousands of them are 
requesting authorization to do that, how long will it take for 
all four of you to get together and to come up with a plan? Can 
you do that? Because this is moving too fast, and it is very 
costly and readiness is at stake.
    But you think you all can get together and come up with 
maybe a solution? I know it is going to be expensive when you 
talk about upgrading or buying new radars. It is going to be 
very, very expensive.
    When Chairman Gates came down, he says, ``You know what? We 
are going to cut down on defense to the point whether it is 
going to be research and development and other items that we 
need, or whether we are going to have to cut down on health 
care for our service people.'' So this is a very serious, 
serious problem.
    How much time do you think you would need to come up with a 
plan that we all can work and sing from the same page, for all 
of you?
    Mr. Webster. From the industry standpoint, we have been 
advocating for 4 years now that a process of earlier engagement 
that meets the needs of all the stakeholders be developed. I 
think that largely the conversations that we have had with the 
other stakeholders, both in the public and private sector, have 
resulted in a good laundry list, if you will, of elements that 
would be contained within such a process. And now it is just a 
matter of actually implementing--more fully developing and 
implementing that process.
    Dr. Robyn. Congressmen, the National Security Council 
initiated an interagency process in the wake of the controversy 
over Shepherds Flat. Shepherds Flat was an unfortunate 
controversy, but it was useful in galvanizing attention. And 
that is an ongoing process, looking in particular at the FAA 
siting review process and whether and if that needs to be--
whether and how that needs to be updated to take account of 
current national security needs and operations.
    I think there is a legitimate question as to whether the 
FAA has--whether its authority would include issues related to 
our training and testing routes. So that is something that we 
are looking at on an interagency basis.
    But I don't think--I mean--I co-chair a group, a standing 
group focused on protection of our ranges. I don't think we 
are--a lot--I don't think this is a big problem in terms of 
maintaining readiness. I agree that there is a situation at 
Kingsville that we need to look at closely. But I don't think 
you will find many examples of that.
    Mr. Ortiz. Let me see if I can get somebody to put the map 
on the screen so you all can see it. And she is going to hand 
out some copies so you can see how it is impacting on at least 
Kingsville for now.
    And another issue that is going to come up now, you see a 
lot of investors coming up and they look at solar panels and 
they say that when they fly, the reflection from these solar 
panels--and this is going to be another issue--impacts on those 
that are training up in the air. So that is going to be 
another--and they are coming to the United States. And, of 
course, we need all this energy.
    But as you can see--the map that we have and how we are 
impacted. But I think that the responsibility now lies on DOD, 
if you can come up with a plan, because you are the ones that 
are being impacted. And, of course as team players, we would 
like to work with the rest of you.
    So do you think, Dr. Robyn, that 30 days would be 
sufficient to come up with something that you can give the 
members of this committee?
    Dr. Robyn. I would like to--there is an interagency process 
in place. I don't know exactly. So I am a little hesitant to 
commit to 30 days. But----
    Mr. Ortiz. You will try?
    Dr. Robyn. Within a fairly short period of time, I think 
this process will run its course and we can report back to you.
    Mr. Ortiz. After consultation with the minority, I now ask 
unanimous consent that Mrs. Halvorson be authorized to question 
the panel members of today's hearing. If there are no 
objections, I will now recognize Mrs. Halvorson.
    Mrs. Halvorson. Thank you, Mr. Chairman, and to the 
committee for allowing me to ask a couple of questions. And I 
also want to thank you for the work you have done on this 
issue.
    I just wanted to ask a couple of questions on a proposed 
wind farm in my district, which is Kankakee County, Illinois, 
which is about 45 miles south of Chicago. And it is called K-4, 
which you all know about. And it is close to a radar system 
located in Joliet, Illinois. As a lot of people know, it is a 
$2 billion project with 310 proposed turbines. And it also has 
an ARSR-3 radar, which is the one just like Shepherds Flat. And 
I know that and I feel that the Shepherds Flat radar should not 
be the only site receiving mitigation work and receiving the 
software upgrades and physical improvements.
    So my question is for Dr. Robyn. What upgrades can you make 
to the ARSR-3 radars nationwide in order for more wind farms 
and radars to coexist? As you know, we have been having major 
problems with this K-4 wind farm project, and you all have been 
so wonderful to work with us to try to make it work. So I am 
wondering, since we are having the same problems as Shepherds 
Flat, what can we do to make this somehow work with mitigation 
efforts?
    Dr. Robyn. Thank you, Congresswoman. And you have been 
terrific, too, to work with on this issue as well. I think what 
led to the response on Shepherds Flat that was somewhat 
different is the construction was due to begin on May 1, and 
there was not an opportunity for the Air Force and the 
developer to go through the process that they normally would 
have. And so that led to the Lincoln Lab study and some other 
things. We do have that time in your district and the RADES--
Air Force is looking at how different configuration of the 
turbines could help the problem.
    I agree that the technology has potential. I think we 
don't--the Lincoln Lab folks looked at a different radar. We 
can't assume that the same things would work, but it is 
encouraging. It suggests some things. And the pilot will offer 
us lessons for that.
    Mrs. Halvorson. So if these upgrades, though, are made, 
what is a realistic time for completion? Because we don't even 
hear that there are possibilities for upgrades.
    And I think the other problem going forward that other 
people need to realize is this is not a process that anybody 
thinks of before they go and make the decisions with the 
leaseholders and anybody who decides to even put a wind farm in 
place.
    Also, in regards to the FAA, Shepherds Flat wind farm in 
Oregon, the FAA originally issued a notice of presumed hazard 
in March. And when the DOD eventually withdrew its objections 
in it to the Shepherds Flat project in late April, a DOD 
spokesperson said that the impact of the project, to the Fossil 
ARSR-3 radar, was not as great as once thought.
    So I think what my issue is--because we have been going 
back and forth with the same issue, the notice of presumed 
hazard--is it possible for this scenario to be the case again 
for other projects elsewhere? Because as you know, the fact is 
there has been an issue with the upgrades not being made since 
1990. And that has probably been one of the biggest problems 
with K-4, is how up to date is the DOD's land covering the 
terrain model data?
    Dr. Robyn. I cannot speak to the terrain model data. I 
think it is certainly worth doing--taking a look at the--
possibly having the Lincoln Lab folks look at the Joliet 
situation. This is the area next to Oregon, north central 
Oregon. This is the area that is of most concern. And as you 
know, this reached a crisis point in 2006 that led to some 
positive developments, but did not go far enough.
    So I think it is worth looking at that. I think there are 
some improvements, short of the Service Life Extension Program, 
that may be suggested by the Lincoln Lab study. So I think it 
is worth taking a look at that, but also having the discussions 
about positioning of the turbines continue.
    Mrs. Halvorson. And my time is up, but I just want to 
reiterate that we are dealing with data from 1990, that it has 
not been easy to tell people that want to invest in communities 
and create jobs and do what they need to, and how do we go back 
and want to mitigate these? So I appreciate all of your help, 
but we need to do more.
    Thank you. I yield back. And thank you so much for the 
courtesy.
    Mr. Ortiz. Thank you so much for you joining us today. And 
going back, if I understand correctly, the FAA--review process 
is 30 days now?
    Ms. Kalinowski. The requirement, Congressman, is for it to 
be filed 30 days before construction begins; however, we 
strongly encourage all developers to file as early as possible 
with us, to begin the discussions and to begin the education 
process with the Department of Defense and DHS [Department of 
Homeland Security].
    Mr. Ortiz. So you are satisfied with the 30 days; you can 
get it running in 30 days?
    Ms. Kalinowski. You made the suggestion earlier, Chairman, 
that we should consider a much earlier filing process and we 
very much wish to consider that.
    Mr. Ortiz. I would like for the DOD also to work with us, 
maybe get your team, Madam Secretary, to work and give us an 
interim report within 30 days; and maybe you can work on 
Kingsville and maybe give an additional 30 days, because the 
people there are concerned and rightly so. We have seen where 
there is a lot of jointness going on. And at one time, they 
would say that Kingsville got all the--open skies, you can 
train, you can do whatever you want to do.
    That has changed now. We want to work together. This is why 
I said we can work as a team, those that are creating this 
energy. And rightly so. It has become a tourist spot because 
people like to drive and see all those windmills turning 
around. And I see people because between Corpus Christi and the 
valley, it is about 110 miles, and there is nothing but the 
windmills, cows and horses. So it has become an attraction. But 
at the same time, we don't want it to impact on readiness.
    Let me yield to my good friend, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And again, I thank all 
of you for being here. And, Dr. Robyn, when I heard your 
colloquy with Mr. Conaway just a few minutes ago, I just sit 
back and I ask this question. First of all, I premise it the 
same way that he does, that all of us up here support wind 
industry and what we are doing with a lot of our alternative 
energies.
    But 11 percent of the people in this country approve of 
this Congress and 89 percent of them disapprove. And the reason 
most of them disapprove is because we come in here and we are 
good at hitting lofty goals. We can state them, we can state 
them up and down here, we can state them from that witness 
stand; but they understand that the devil is always in the 
details, and over and over what we are trying to get up here 
are the details. And we can't get them because all we get is a 
restatement of the lofty goals.
    We sit back here, and the American people here, drafting 
legislation in the Senate now, where the drafter of the 
legislation says, ``We don't know how it is going to work or 
the impact until we pass the legislation and get it into 
effect.'' And the American people are saying, ``My gosh, what 
are they doing?''
    This year the American people are saying, ``Give us the 
details and a budget.'' And this Congress is saying, ``No, no, 
no, no, we don't want to give the details, let us talk about 
lofty goals.''
    We won't do a budget and the American people, 89 percent of 
them are saying, ``Are they crazy up there?'' The budget is 
what shows the details.
    Last year, the Department of Defense by law had to give us 
a shipbuilding plan so we could see on paper those details 
about how many ships we were building so we could see what 
actually came out last year, the Chinese had more ships than we 
had in our Navy, and we couldn't get those details from the 
Department of Defense.
    What Mr. Conaway is asking seems like a simple question--
let me finish and I will let you respond. You said you 
disagreed with him. He is not asking about which theory we pick 
or where we are going. He is saying, shouldn't the American 
people be entitled to know the cost differential between buying 
energy one way, and by putting something in a bill that is 
going to cost us more, so that we can determine how many planes 
we have to give up to do that, how many ships we have to give 
up, how many MRAPs we have to give up, how many guns and how 
many bullets we have to give up. Because our warfighters, when 
they come back, theories don't matter to them. It comes down to 
do they have that air covered, do they have those bullets and 
do they have these planes--and as the chairman said, we are 
getting realistic discussions now that we have got to cut out a 
lot of those real things, because there is not enough money.
    And so the question I come back to is: Why is that such an 
unreasonable question to say, Can't we just come back and lay 
on the table the cost differential between doing it one way and 
doing it another way? Not policy. We can argue the policy.
    Dr. Robyn. Sir, we were--certainly. Can I give you a plan 
for how we will achieve our goal set by the Congress, codified 
by the Congress, of achieving 25 percent renewable energy 
consumption by our installations by 2025? That is a goal given 
to us by the Congress.
    Mr. Forbes. Doctor, I am not arguing that the Congress is 
doing everything right. I don't think that is what Mr. 
Conaway--what we are just saying is--I am sorry. Still, you are 
giving us goals. And what we are saying--we understand we need 
goals. That is okay to have. But what is the----
    Dr. Robyn. No, sir. That is a goal that you gave us.
    Mr. Forbes. I am not saying that I am going to rubber-stamp 
everything Congress does. I am simply saying what Mr. Conaway 
is saying, is whether Congress gives the goal or whether DOD 
picks the goal, what is the cost of the implementation to try 
to get to the goal?
    Because I think you would agree with me at some point--even 
if we look, all of these energy points at some point in time, 
we are coming down to a situation that I have got to pick doing 
this or cutting out airplanes.
    That is what Mr. Conaway just said. The American people 
need to know this is a good goal. But how many ships is it 
going to cost us? How many planes is it going to cost us? 
Because you may get to the end of that goal and it might not 
have done what you wanted it to do, whereas we know those ships 
and planes might have.
    So my question is not so much the plan, but the cost. Do 
you not feel that this committee and this Congress and the 
American people should have the right to know those cost 
differentials----
    Dr. Robyn. I would be happy to lay that out in the context 
of what we think it will save longer term. Last year in a 
budget briefing, the Army said to me, ``We didn't have enough 
money to invest in technology to reduce our utility bills, 
because we were so strapped just to pay our utility bills.'' 
That is crazy. We should be making investments--not just 
renewable, but energy-saving technology to reduce--we consume 
20 billion--we spent $20 billion a year on energy, 4 billion of 
that on facilities.
    Mr. Forbes. Dr. Robyn, I wrote a plan, the New Manhattan 
Project. The Wall Street Journal has seen it and Fox News; all 
thought that was the way we should go to get where you want to 
go. So I am not going to argue the goals. I understand those.
    All Mr. Conaway was asking is: Can you tell us the cost 
differential between getting energy one way and getting it with 
all of the requirements that we have put in the defense 
authorization bill?
    And I don't think we are going to get that figure; any more 
than we got a shipbuilding plan last year, we are going to get 
a budget this year. But I am just simply saying as humbly as I 
think I can, I think it is a reasonable request, and all we get 
back is a repeating of what goals are.
    Dr. Robyn. No. I feel like--I am happy to do that if I can 
show you long-term savings and if I can also quantify the 
benefits to energy independence.
    Mr. Forbes. I think my good friend from Texas would love to 
have you show him anything else if you would just give him the 
cost.
    Dr. Robyn. Good. The Defense Science Board said in its 2008 
report two big things: One, you are not looking at the fully 
burdened cost of fuel on the operational side. The actual cost 
of fuel is the tip of the iceberg. You are ignoring the soft 
underbelly, the logistics tail that it takes to get there. On 
the facilities side, their big message was you are not taking 
into account the risk to mission assurance from the 
vulnerability of the electricity grid. And part of their 
recommendation was increase use of renewables in combination 
with several other things.
    And they made the point, which I have made, that we don't 
put--we don't quantify the benefits to mission assurance of 
this increased energy security. That is a benefit that goes 
unmeasured.
    Mr. Forbes. And I think--and I don't want to speak for him. 
But I think my good friend from Texas would be delighted for 
you to put down any other costs that you would want to put 
down, any other projections, as long as you provide the 
committee with the cost of the two differentials. And then 
argue any way you want to go. That is okay. That is fair. It is 
just sometimes we feel like all we get is a restatement of the 
goals. And nobody ever comes back with the detailed costs.
    And that is what Mr. Conaway was asking, I think, fair, to 
be able to say, because at some point in time, at some point in 
time, this chairman is going to have to make a decision in his 
mark between planes and between bullets and between other 
things that we have in some of these things. And it just helps 
us to know if we can get those details.
    And with that, Mr. Chairman, I yield back.
    Mr. Ortiz. And this is so important, and this is why I said 
earlier, we need to work as a team together. The State 
legislature in Texas, as you well know, they meet once every 6 
months, every 2 years. So they knew that we were about to have 
a problem, but they are not in session. So I think that by 
working together, and my question would be to the FAA, what can 
we do as a committee to help improve the application review 
process on the length of time afforded so that you can review? 
Or do you have the necessary authority to get more time to 
thoroughly review applications to protect military readiness? I 
mean, do you think that the 30 days that you have gives you 
ample time to do that? Maybe by putting the resources 
together--but this is going to become, believe me, a very 
serious problem, because we haven't touched yet on solar 
panels. And that is going to become another issue as well.
    And I know, because we have the wind in South Texas, and we 
have the sunshine, and today a hurricane, but investors are 
wanting to come in and invest on another system, the solar 
system. But can you all work and maybe give us something in 30 
days, and if it is a little more complicated, maybe 60 days? Do 
you think we can work together on that?
    Ms. Kalinowski. Sir, your guidance and your leadership to 
us is probably sufficient. We will certainly take this under 
consideration. It will take formal rulemaking, which, as you 
well know, takes a long time. But what we can do is put on our 
website and work with the proponents of the Wind Energy 
Association and the individuals who wish to bring in both solar 
energy and wind turbines, to ask them voluntarily to come to us 
as early as possible. We will also work with our partners in 
government to bring forth a proposal for the possibility of the 
ability to work with proponents in confidence to protect their 
ability to not communicate exactly where they want to put the 
wind farms or the solar energy projects to other proponents, 
but to work with us so that we can better analyze at a much 
earlier stage, as you have encouraged us to do, to determine 
what the impact on national readiness for defense would be.
    Mr. Ortiz. Madam Secretary Robyn, what can we do to help 
you? Because we are all in the same boat. We want to work with 
you and each member of the panel this morning. What can we do 
to help you?
    Dr. Robyn. I think, we are--to complement the FAA process, 
we are, as I described, standing up a clearinghouse, a central 
point of contact, a 1-800 Butterball Turkey number, if you 
will, something that makes it easy for developers to come to us 
early on a voluntary basis.
    We do feel we need, we think the FAA probably needs the 
formal explicit authority to take into account training and 
test--our training and test missions. We are not--it is not 
certain that their current authority includes that.
    Nancy mentioned a rulemaking, but some statutory guidance, 
statutory language might help. That is something that this 
interagency group, led by the National Security Council, is 
very focused on. It is probably--it is one of the single 
biggest issues. So, certainly at a minimum, within 30 days let 
you know where that process stands. I think that is the most 
concrete--that, together with this clearinghouse.
    But with respect to training routes in particular, this--
give you a status report on our thinking on the need for 
statutory authority. We are--it may make sense to try to use 
the defense bill as a way to get that authority if the other 
relevant committees were willing to do that.
    Mr. Ortiz. And I can assure you that members of this 
committee and the staff will work with you. As you can see, 
this is the first time we had a hearing such as this, and it 
has been very interesting. I think I have learned a lot.
    And I am going to ask, Mr. Webster, is industry prepared to 
provide proposals earlier, Mr. Webster?
    Mr. Webster. AWEA and its stakeholders have been working 
intimately with the public agencies to inform them as to where 
our abilities are present to be as transparent as possible, 
with the caveat that the industry is a highly competitive 
industry and, therefore, is not necessarily in unison all the 
time with each other. It is fair to say that this issue has 
become of prominent importance because of the frequency and 
intensity of the conflagrations that have occurred; Shepherds 
Flat being the most recent but not the only one that has 
reached national prominence.
    The reality is that wind energy is a component to the 
national security of this country. It is a component of 
stabilization of a quickly destabilizing world that we are 
living in. Fossil fuel has become a major point of conflict 
that we are constantly and increasingly deploying resources to 
deal with, either directly or indirectly. And wind energy and 
solar energy and other renewables are a solution, not just for 
the United States, but for the world. Someone has to be the 
leader in that. The United States has a history of being a 
leader in such initiatives, and we will continue to do so.
    To this particular point, the solutions that can be brought 
to bear today with the political and financial willpower to 
solve the wind industry's issues with respect to radars would 
also increase the effectiveness and the efficiency of those 
same radars to accomplish their mission with or without a wind 
turbine being impacted by it. To that end, the economic forces 
that the industry can bring to bear on this issue have been and 
will continue to be offered to the public agencies to resolve 
this issue, both in a policy framework as well as a 
technological solutions framework.
    Mr. Ortiz. Thank you so much.
    You know, in the beginning, when we saw the first 
windmills, the concern was for wildlife. Do you remember that? 
The birds. Now, it has moved to another level, readiness. And 
we are very concerned.
    But let me thank each panel member for giving us some great 
insight, that input that you have given us today. And you and 
us are going to work together because this is an urgent matter 
that we need to address. And thank you so much.
    And there being no further questions, this hearing stands 
adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 29, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 29, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1770.001
    
    [GRAPHIC] [TIFF OMITTED] T1770.002
    
    [GRAPHIC] [TIFF OMITTED] T1770.003
    
    [GRAPHIC] [TIFF OMITTED] T1770.004
    
    [GRAPHIC] [TIFF OMITTED] T1770.005
    
    [GRAPHIC] [TIFF OMITTED] T1770.006
    
    [GRAPHIC] [TIFF OMITTED] T1770.007
    
    [GRAPHIC] [TIFF OMITTED] T1770.008
    
    [GRAPHIC] [TIFF OMITTED] T1770.009
    
    [GRAPHIC] [TIFF OMITTED] T1770.010
    
    [GRAPHIC] [TIFF OMITTED] T1770.011
    
    [GRAPHIC] [TIFF OMITTED] T1770.012
    
    [GRAPHIC] [TIFF OMITTED] T1770.013
    
    [GRAPHIC] [TIFF OMITTED] T1770.014
    
    [GRAPHIC] [TIFF OMITTED] T1770.015
    
    [GRAPHIC] [TIFF OMITTED] T1770.016
    
    [GRAPHIC] [TIFF OMITTED] T1770.017
    
    [GRAPHIC] [TIFF OMITTED] T1770.018
    
    [GRAPHIC] [TIFF OMITTED] T1770.019
    
    [GRAPHIC] [TIFF OMITTED] T1770.020
    
    [GRAPHIC] [TIFF OMITTED] T1770.021
    
    [GRAPHIC] [TIFF OMITTED] T1770.022
    
    [GRAPHIC] [TIFF OMITTED] T1770.023
    
    [GRAPHIC] [TIFF OMITTED] T1770.024
    
    [GRAPHIC] [TIFF OMITTED] T1770.025
    
    [GRAPHIC] [TIFF OMITTED] T1770.026
    
    [GRAPHIC] [TIFF OMITTED] T1770.027
    
    [GRAPHIC] [TIFF OMITTED] T1770.028
    
    [GRAPHIC] [TIFF OMITTED] T1770.029
    
    [GRAPHIC] [TIFF OMITTED] T1770.030
    
    [GRAPHIC] [TIFF OMITTED] T1770.031
    
    [GRAPHIC] [TIFF OMITTED] T1770.032
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 29, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1770.033
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 29, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ORTIZ

    Ms. Kalinowski. Although the FAA does not gather or track 
information on proximity of wind farms to military bases or military 
installations, we have conducted a review of our obstruction evaluation 
automated system records. This review indicates that during the last 5-
year period, 19,972 determined wind turbine/met tower proposals were 
located within a 5-nautical mile radius of long-range radars, military 
and joint use airports, military facilities and military radars, and/or 
have exceeded the parameters of the Military Conflicts program. The 
Department of Defense sets up its own parameters on which information 
in our automated system it wishes to receive, and is also solely in 
control of the notifications it requires and receives. [See page 12.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES
    Mr. Webster. According to the AWEA 2nd Quarter 2010 market report 
(http://www.awea.org/publications/reports/2Q10.pdf), over 33,700 wind 
turbines were installed in the U.S. as of June 2010. With respect to 
the second part of the question, the number of additional wind turbines 
over the next five years is impossible to predict. The number will 
depend greatly on market demand and government policy. Over just the 
last few years, installations have varied from 2,385 megawatts in 2005, 
to 10,000 megawatts in 2009. Installations in 2010 are expected to be 
below the 2009 numbers. Therefore, I can only give a wide range of 
possible installations over the next five years. This is merely 
illustrative and is not a prediction: the U.S. could install anywhere 
from 3,000 to 6,000 additional turbines per year. Though, it could be 
less or maybe more depending on market demand and turbine size. [See 
page 14.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY
    General Stutzriem. The Department's investment in renewable and 
other alternative energy sources is the second part of a twofold 
strategy. The first part is reducing the demand for traditional energy 
through conservation and energy efficiency; investments that curb 
demand are the most cost-effective way to improve an installation's 
energy profile. The second part--investments designed to expand the 
supply of renewable energy sources on base--is also important. Although 
the payback period is significantly longer than that for energy 
efficiency projects, renewable energy is key to energy security. When 
combined with microgrid technology and energy efficiency investments 
that significantly reduce demand, distributed renewable energy sources 
will allow installations to carry out mission-critical activities and 
potentially serve as mini-islands that can support restoration of the 
grid in the event of disruption.
    A report of the Defense Science Board highlighted the importance of 
energy security to the Department. According to the report, DoD's 
reliance on a fragile commercial grid to deliver electricity to its 
installations places the continuity of critical missions at serious and 
growing risk.\1\ Most installations lack the ability to manage their 
demand for and supply of electrical power and are thus vulnerable to 
intermittent and/or prolonged power disruption due to natural 
disasters, cyberattacks, and sheer overload of the grid.
---------------------------------------------------------------------------
    \1\ ``More Fight-Less Fuel,'' Report of the Defense Science Board 
Task Force on DoD Energy Strategy, February 2008.
---------------------------------------------------------------------------
    The changing role of the military's fixed installations accentuates 
this concern. Although in the past these installations functioned 
largely to train and deploy our combat forces, increasingly they have a 
more direct link to combat operations, by providing ``reachback'' 
support for those operations. For example, we operate Predator drones 
in Afghanistan from a facility in Nevada and analyze battlefield 
intelligence at data centers in the United States. Our installations 
are also becoming more important as a staging platform for homeland 
defense missions. This means that power failure at a military base here 
at home could threaten our operations abroad or harm our homeland 
defense capability.
    Notwithstanding the importance of energy security and the 
relationship between energy security and renewable energy, the DoD in 
fact spends less per MBTU for renewable energy than for electricity 
from the grid. In 2009, the Department spent a total of $3,784 million 
to buy 220.6 trillion BTUs of facility energy. This averages to $17.15 
per MBTU. In the same year, the Department spent $62.9 million to buy 
3,726 billion BTUs of renewable energy, which averages to $16.89 per 
MBTU.
    The figures above for renewable energy do not include production 
from Government-owned sources of renewable energy, nor do they include 
production of geothermal energy at China Lake.
    The 270 megawatt geothermal plant at China Lake is one example of a 
renewable energy project that has significantly reduced the 
Department's facility energy costs. The plant is operated by a private 
firm under a lease that provides funding back to the Navy, which is 
used to purchase additional power and to invest in other energy 
efficiency and renewable energy projects. Another example of a highly 
advantageous renewable energy project is the 14 megawatt photovoltaic 
plant at Nellis AFB. The Nellis solar array was installed by a private 
company; under the terms of the agreement with the company, DoD 
purchases power from the plant at a steep discount as compared to the 
prevailing energy rate ($22/MWH compared to prevailing $78/MWH). [See 
page 20.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 29, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Is the Department willing to accept decreased military 
readiness to support national energy initiatives?
    Dr. Robyn. No--but it doesn't have to. According to the data we've 
collected to date--primarily centered on the southwestern US--the 
Department has raised no objection to more than 93% of proposed 
projects.
    Mr. Ortiz. In Shepherds Flat, Oregon, the FAA, acting in response 
to DOD's concerns, issued a proposed notice of hazard with regard to 
the impact to an air defense radar at Fossil, Oregon. After public 
concerns were considered, the FAA reversed the warning and allowed the 
wind farm development to continue. What is the impact to military 
readiness and operations as a result of the wind farm development at 
Shepherds Flat? What are the lessons learned from the Shepherds Flat 
wind farm project in the review of future wind farm proposals?
    Dr. Robyn. After extensive study, we concluded that the risks 
presented by Shepherds Flat would not be as severe as initially 
thought. We've looked at all the known projects that could impact the 
Fossil radar and have concluded those risks are manageable--but we must 
review future development case-by-case to ensure we can continue to 
manage the operational risk. The major lesson learned is that the 
current regulatory and permitting process for wind farms was not 
designed with homeland defense or military testing and training in 
mind; we must move to an early voluntary notification process so the 
Department can work with developers and localities to find win-win 
siting and technical solutions.
    Mr. Ortiz. In response to a wind farm application, how is the 
Department currently organized to provide timely feedback to the FAA? 
Which organizations review the applications for both readiness and 
operational equities? Will the Department take any steps to reorganize 
to better review and expedite applications to provide timely feedback 
to the FAA?
    Dr. Robyn. Until recently, the process was ad hoc, involving case-
by-case coordination among the Offices of the Deputy Under Secretaries 
of Defense for Installations and Environment and for Readiness, the 
Assistant Secretary of Defense for Homeland Defense, the Director of 
Test and Evaluation, the Joint Staff, the Service Secretariats, and the 
Service Staffs. To streamline and institutionalize the process--and to 
facilitate timely communication with the FAA, other governmental 
entities, and industry--we are creating an Energy Siting Clearinghouse 
to manage the review process and serve as a ``one-stop shop'' for all 
inquiries and staff actions regarding utility-scale generation and 
transmission projects. I hired the director on July 26, and in mid-
September we executed contracts to hire staff, procure IT support, and 
draft the departmental instruction that will govern clearinghouse 
processes.
    Mr. Ortiz. Considering the FAA elects not to implement their 
statutory review authority to protect military training routes, what is 
the Department's response to an obstruction in a military training 
route corridor? Does the Department need additional authority to 
protect military training routes or is a degradation in these military 
training routes an acceptable outcome to meet a national energy 
strategy?
    Dr. Robyn. The Department is concerned that the statutory and 
regulatory language underlying the FAA's authorities may not be 
sufficiently broad or explicit to handle concerns related to our test 
and training mission; the scope of the OE/AAA process may need to be 
expanded to address those concerns. To explore that issue, we're 
working with an NSC-led interagency group that includes all parties 
responsible for safety and security of our air domain. We don't want to 
rely solely on the FAA, however, nor does the Department want to become 
a regulator. Instead, we are reaching out to local, regional, and 
industry officials and are working to institutionalize an early 
voluntary consultation process.
    Mr. Ortiz. Are there radar improvements or other technological 
advancements that can mitigate the impacts of wind farm development? 
What are the costs of such systems? If the Department determines that 
an upgrade to a particular radar network is necessary to mitigate a 
wind farm development proposal, should the Department accelerate the 
upgrades of certain older radars that are proximate to potential wind 
farm developments on a priority basis, or should the wind farm industry 
be responsible for including the costs associated with radar upgrades 
as an element of the overall wind farm project?
    Dr. Robyn. There are a number of technological solutions that 
promise to mitigate radar interference, and we're working with the FAA, 
Department of Energy, Department of Homeland Security, and the Office 
of Science and Technology Policy to determine the costs and relative 
benefits of various options. First, MIT Lincoln Laboratory identified 
near-term fixes for surveillance radars, including a new processor with 
an ``adaptive clutter map'' to edit out false returns. Second, we're 
looking at other existing technology, such as ``gap-filler'' radars and 
replacement radars like the TPS-77. Finally, we are increasing the 
level of R&D in this area and supporting an OSTP-led task force that 
seeks to baseline and harmonize the efforts of various agencies on wind 
turbine-radar interference. DoD will schedule improvements based on 
operational requirements, which are affected by existing and planned 
wind farms. However, given the long lead times associated with 
programming and budgeting, industry may choose to cost-share to 
accelerate radar upgrades or replacements.
    Mr. Ortiz. What level of research and development is the Department 
investing to reduce conflict with wind farm development? How much money 
is being spent in FY10 and FY11?
    Dr. Robyn. Over the last two years, the Department has spent 
several million dollars. As this issue has risen, we have worked to 
increase the Department's R&D spending in FYs 11 and 12, and we are 
working on a research and development plan with our interagency 
partners in an Office of Science and Technology Policy-led task force. 
The task force's initial report is due in December 2010.
    Mr. Ortiz. What guidance has the DOD given installation commanders 
regarding steps required to properly evaluate a wind farm application 
and what elements would be considered an obstruction?
    Dr. Robyn. In June 2010, the Air Force--as force provider for the 
majority of the homeland surveillance mission--issued interim guidance 
from the Assistant Secretary for Installations, Environment, and 
Logistics and the Deputy Chief of Staff for Operations, Plans, and 
Requirements to make installation commanders aware of the breadth of 
the issue and to refer them to its A3 Ranges and Airspace office for 
assistance. Simultaneously, DoD has notified all its Regional 
Environmental Coordinators, who represent installation commanders to 
state and regional planners and have been working renewable energy 
issues for the last two to four years, to immediately notify the new 
Energy Siting Clearinghouse of wind farm plans and applications. Those 
coordinators will meet in the Pentagon in late October to formalize 
that process.
    Mr. Ortiz. How does the proliferation of wind farms in and around 
the United States impact your air sovereignty mission? And, what is 
NORAD's strategy for adapting to the impacts of wind farms?
    General Stutzriem. The air sovereignty/air control and air warning 
missions require NORAD to detect, identify, monitor, and if 
appropriate, intercept and engage potentially hostile aircraft. Wind 
farms within line-of-sight of radars make it more difficult to detect, 
identify, and monitor non-cooperative aircraft. The primary impacts to 
the radar vary from an increase in screening from the wind turbines 
themselves (towers, nacelles and blades) to increased false targets 
generated by the wind turbine blades' movement (the Doppler motion 
component), as well as reduced radar sensitivity where the severity 
depends upon the type of radar in question and the amount of radar 
clutter encountered. Each of these very complex impacts cumulatively 
affects the radar's overall picture. This picture is what is used to 
determine the ``tracks'' that allow us to detect, identify, track, 
intercept and defend North American airspace. Some specific operational 
impacts include:

    -- Reduced ability to detect/monitor ``tracks''--both friendly or 
with hostile intent
    -- Reduced reaction times--diminished detection capability results 
in earlier decision points for senior leaders and a high potential for 
zero possibility of affecting an outcome
    -- Negation of response options--lack of detection capability 
results in decreased air safety capability and a reduced capability to 
affect air defense intercepts

    Our strategy is to maintain an acceptable level of air domain 
awareness by:

    -- Better understanding the true impact of wind farms on radars
    -- Developing an overall depiction of the impact of existing, 
developing, planned and potential wind farm air domain awareness
    -- Working with the FAA to review wind farm project submissions. 
During the review process, the 84th Radar Evaluation Squadron analyzes 
whether the new wind turbines will interfere with the local air 
surveillance radars. If the wind farm project poses a significant 
degradation to the radar, mitigation recommendations are made to the 
builder
    -- Weighing the risk of individual projects within the context of 
location and magnitude of the risk and making appropriate 
recommendations
    -- Working with the technical community to identify and assess 
potential mitigation, and with OSD, the Joint Staff and other partners 
to gain recourses for required mitigation

    For years, NORAD and USNORTHCOM have worked to maintain wide area 
surveillance capabilities and improve them to meet future threats. We 
fully support OSD and interagency efforts to improve the coordination 
process for new wind energy development, as well as the development of 
new technologies to help us better define the operational impacts of 
wind turbines on our radar systems.
    Mr. Ortiz. In your estimate, should the Department accept a 
reduction in military readiness to obtain energy production goals? 
Should the Department accept any risk in the air defense mission? How 
should the Department balance these potentially diverging goals?
    General Stutzriem. A complete avoidance of risk in any DOD mission, 
including air defense, is not feasible from either a cost or technical 
perspective. Moreover, risk discussions largely fall in relative 
terms--a large decrease in overall national security risk due to 
greater energy independence might justify a very small increase in air 
defense risk against a limited threat. Thus, it is important to develop 
a clear understanding of the impact of and potential mitigations for 
wind energy projects, and we will be vigilant in identifying projects 
we assess as carrying unacceptable risk.
    We believe it is possible to obtain alternative energy sources 
while simultaneously conducting our national air defense mission. To do 
so, multi-department cooperation is required to pool our resources to 
develop the policy and future surveillance infrastructure that will 
provide national security and renewable energy at the same time. We 
should also continue to explore technical solutions to mitigate wind 
turbine effects on our current radars.
    Mr. Ortiz. In testimony before the House Armed Services Committee, 
the Commander of Northern Command has warned this committee of the 
potential hazards associated with wind farms and other types of 
obstructions. If current rates of wind-farm development are sustained 
for the next five years, what is your assessment of the impact of these 
developments on national defense?
    General Stutzriem. The current pace of wind farm development 
increases the potential that radar signals vital to our ability to 
protect the national airspace will be obstructed. Currently, nearly 
half of our 200 radars are impacted to some degree by wind turbines and 
13 experience moderate or significant degradation substantial enough 
for 84 RADES to recommend that NORAD and USNORTHCOM perform a more 
detailed operational analysis. This analysis could result in a request 
for a determination of hazard through the Federal Aviation 
Administration's Obstruction Evaluation/Airport Airspace Analysis 
Review Process. The actual impact to national defense of these radars 
is dependent upon the location of each radar and support that it 
provides.
    Mr. Ortiz. What, if any, is the most reasonable method to mitigate 
wind farms and other similar encroachments?
    General Stutzriem. DOD's Report to Congress in 2006 identified the 
best approach as ``avoid locating the wind turbines in radar line of 
sight of such radars. These mitigations may be achieved by distance, 
terrain masking or terrain relief and requires a case-by-case 
analysis.'' In addition, based on recent reporting from the 
Massachusetts Institute of Technology's Lincoln Laboratory, there are 
also technical modifications that can mitigate wind farm effects on our 
radar infrastructure. These include re-optimization of radar settings, 
modifications to the auxiliary processor with detection editing and 
adaptive clutter map, and installation of new transmitters/receivers 
with coherent processing.
    Mr. Ortiz. Considering the apparent indecision that a developer has 
with making permit applications, would the FAA consider moving the 
obstruction application deadline from 30 days before construction to 
possibly one year? This could allow the developer some certitude with 
the ordering of capital equipment.
    Ms. Kalinowski. The FAA is considering separate regulatory 
guidelines for wind turbine development with notice requirements of 8 
months to 1 year before construction. If we pursue regulatory action, 
it will take a minimum of three years to complete.
    We note, however, that developers frequently wait until the very 
end of their multiyear process before they acquire land rights or 
leases, and, therefore, do not know the exact coordinates or layout of 
their wind farm. Even if the FAA requires notice 1 year in advance, the 
developer may not be able to provide specific information to allow for 
an aeronautical study.
    Mr. Ortiz. How successful is the FAA in managing the deluge of wind 
turbine applications?
    Ms. Kalinowski. The FAA believes that it has been successful in 
managing wind turbine applications. We have increased staffing to 
review the applications, and we work routinely with our partner 
agencies, such as the DOD and DHS, as well as with the developers, to 
reach compromises that do not interfere with aviation safety. However, 
the FAA recognizes there is always room for improvement and seeks to 
evolve our processes to better communicate and coordinate between our 
agency and other entities.
    Mr. Ortiz. In the FAA's assessment, how successful is the FAA in 
coordinating with the DOD? What is the current process that FAA pursues 
to seek DOD comment? How successful is the DOD in providing timely 
feedback? Considering the classified nature of certain DOD missions, 
how does the nature of these classified missions impact the FAA's 
ability to evaluate obstructions for their impact to the navigable 
airspace?
    Ms. Kalinowski. The FAA is very successful in coordinating with the 
DOD. We have an automated system and each notification goes directly to 
the DOD for evaluation. The DOD sets up its parameters within the 
obstruction evaluation Web site, and controls who reviews and evaluates 
proposed construction. Current guidelines provide 2 weeks for review 
and response. However, extension requests are frequent, and response 
times can exceed 30 days for wind turbine evaluations that affect long-
range radars. The FAA relies on evaluation and information provided by 
the DOD. Information that is considered classified is not shared with 
the FAA. The FAA bases its evaluation on all the available information 
and works with the DOD to resolve any gaps in information to the extent 
possible.
    Mr. Ortiz. In practice, should the DOD have regulatory authority to 
better manage their concerns and potential impacts to military 
readiness, in addition to FAA's regulatory authority? Why or why not?
    Ms. Kalinowski. The FAA does not believe the DOD needs to have a 
separate regulatory authority to better manage its concerns and impacts 
to military readiness. A division of the regulatory authority would be 
unwieldy and create additional and unforeseen difficulties in managing 
and coordinating responses to the same proposals. The current process 
is able to account for both the FAA's and the DOD's separate missions, 
and continue to evolve our working relationships to improve the process 
when needed.
    Mr. Ortiz. Would the FAA consider alternative solutions such as a 
radar relay station in an additional location, or additional radar 
supplements on the far side of an offshore wind farm, to mitigate these 
issues?
    Ms. Kalinowski. The FAA is not responsible for procurement of air 
defense radar systems. This responsibility was transferred to the DOD 
and DHS in 2003 when the Long-Range Radar Joint Program Office between 
the DOD and DHS was established.
    Mr. Ortiz. During the early stages of wind turbine/wind farm 
development, does the developer consider or take into account homeland 
defense and homeland security aspects that may become an issue in the 
development process? Or do they solely rely on the DOD process to 
advise them of a national security impact that may occur with this 
project?
    Mr. Webster. Wind energy developers have to take many factors into 
account when analyzing the viability of a given site, including (not 
necessarily in this order):

    (1)  the wind resource;
    (2)  being able to lease the land;
    (3)  physical accessibility of the site;
    (4)  land use compatibility;
    (5)  environmental issues, including potential wildlife impacts;
    (6)  access to transmission;
    (7)  other resource conflicts, including airspace and radar, 
cultural resources etc.; and
    (8)  finding a buyer for the power.

    Any one of these issues can kill a project. Perhaps as few as one 
out of 10 sites a company considers developing will ultimately end up 
with turbines being constructed.
    Developers generally do talk to local base commanders either 
directly or through specialized consultants, though I am sure there are 
exceptions, and most also consult DOD's online tool via the FAA Web 
site to find out if there are potential conflicts with DOD activities.
    However, to date, the quality of the engagement varies by base. 
Some bases are open to discussions, including discussions of possible 
mitigation, and others are not. Some bases will provide an explanation 
of their concerns, which is a precursor to being able to discuss 
mitigation, and some will not. For example, Iberdrola Renewables 
consulted with the Kingsville Navy Air Station several years prior to 
constructing our Penescal Wind Project, and altered the project's 
layout to accommodate a military training route managed by the base.
    Additionally, there is currently no DOD process, per se. Each 
developer is essentially attempting to determine whether there is an 
impact or not through various means such as those described above, as 
well as through consultation with contractors who have varying degrees 
of expertise in such matters.
    In addition, the quality of information fed into the online tool 
varies. It is my understanding that the Army and Navy have fed only 
very limited data, if any, into the online tool. If industry is missing 
two-thirds of the picture, that is a problem. Additionally, developers 
are aware that the online tool has incorrect assumptions built in. For 
example, the assumption on the height of the structure is too 
conservative. Specifically, the tool assumes a 750, structure to 
determine line of sight impact when turbines are approximately 400-450, 
in height.
    It would also be helpful for industry to be given access to GIS 
shape files that would provide an additional layer of detail to more 
fully understand the potential impacts of development and to consider 
mitigation options on the wind farm side.
    Mr. Ortiz. How does your organization coordinate renewable wind 
energy concerns on homeland defense requirements? And, do you have any 
suggestions for balancing wind farm developments with the military 
readiness and operational impacts that have been discussed in today's 
hearing?
    Mr. Webster. One of AWEA's missions is to educate the industry 
about issues of concern and to make sure developers are aware of 
potential resource conflicts like airspace and radar. In a variety of 
workshop and conference sessions over the last several years, AWEA has 
held discussions on issues related to radar and military operations, 
including having speakers from DOD and other federal agencies.
    AWEA also issued a Siting Handbook in 2008, which is available for 
free on the AWEA Web site to anyone who is interested. The handbook 
contains information on the airspace and radar related reviews that are 
required for wind energy projects.
    So, while AWEA generally does not get involved in individual 
project siting, AWEA does try to make sure our members have the tools 
they need to engage agencies and address concerns that may arise.
    With respect to balancing, as I detail in my written testimony and 
in responses to some of these additional questions, the wind industry 
believes that wind turbines can and must co-exist with military 
operations. And, indeed, they have co-existed in the U.S. and around 
the world for many years. But, to improve the likelihood of that 
continuing into the future, AWEA recommends:

    (1)  Developing an improved process for consulting agencies 
earlier;
    (2)  Establishing a proactive plan for upgrading radars, which will 
not only benefit national security, but will also accommodate 
additional wind energy deployment; and
    (3)  Investing in significant research and development to upgrade 
the surveillance technology currently in place, much of which is two 
decades or more old, as well as other impact-reduction opportunities 
such as stealth blades and radar gap filling technology.

    Mr. Ortiz. What is the industry's responsibility for upgrading air 
defense radars that are impacted by a proposed wind farm development?
    Mr. Webster. The wind industry is willing to share in the cost of 
some radar upgrades. However, the details need to be negotiated with 
the relevant agencies. And, they will likely have to be worked out on a 
case-by-case basis with the wind energy developers operating in a given 
area of concern to DOD.
    Generally, from the industry's point of view, if DOD is already 
planning to upgrade a radar for national security reasons, and those 
changes also happen to benefit a specific wind energy project or 
projects, it would not be reasonable to require the project 
developer(s) to pay for the entire upgrade. On the other hand, if a 
radar upgrade is largely attributable to wind energy development and 
the developers are the primary beneficiaries of the upgrade, then a 
case can be made for a larger industry cost share responsibility.
    One example from a different context: the interconnection queue 
process for energy generation facilities. When a generation facility 
seeks to interconnect to the electric transmission grid, the 
interconnecting utility determines what upgrades to the electrical 
transmission system are needed, and among those upgrades, the 
difference between which of these are solely benefitting the generation 
facility and which are `network upgrades' that benefit the whole 
system. The energy generation facility is then assigned the costs 
attributable solely to their project, and in some cases they are also 
assigned a prorated share of these network upgrades.
    In some cases in the past, individual developers have offered funds 
to pay for a radar upgrade. But, DOD had concerns about whether they 
could accept resources from a private entity for this purpose. This 
legal authority may need to be clarified.
    Finally, the industry has suggested a proactive effort on the part 
of the industry and the agencies to identify radars of concern that 
coincide with heavy wind resource areas and to come up with a radar-by-
radar upgrade plan. The industry stands ready to assist in such an 
effort.
    Mr. Ortiz. Would the industry support an earlier review period by 
FAA, beyond the 30-day submission prior to construction, to ensure that 
the wind farm development has cleared the FAA regulatory review? What 
would be a better time period for the federal agencies to complete 
their regulatory review?
    Mr. Webster. Yes, the industry supports the ability to engage in 
voluntary consultations with federal agencies earlier than is required 
under FAA rules. Ideally, we would seek a preliminary analysis, 
including a discussion of mitigation alternatives. At the end of the 
process, the agencies would then provide their final input on a 
proposed project via the existing FAA obstruction evaluation process. 
However, the industry strongly recommends that such early discussions 
remain consultative and that they not be used as a regulatory decision 
point.
    Specific suggestions for areas in which we think the review process 
could be improved are as follows:

        1.  Earlier engagement, including preliminary analysis
          The agencies have tended to shy away from early consultations 
        because the developers do not have final turbine locations 
        established until very late in the development process and 
        because the agencies are resource constrained with respect to 
        conducting turbine evaluations. The agencies prefer to wait 
        until developers' plans have been finalized before they process 
        applications.
          However, if the agencies conducted a preliminary analysis, in 
        which the developer submitted as much information as possible 
        about the project, such as the acreage of the project, the 
        ``four corners'' of the project using latitude and longitude, 
        the approximate number of turbines, and the approximate turbine 
        height, then potential problems could be identified much 
        earlier, and solutions discussed. In order to conduct 
        preliminary reviews of this type, the resource constraints at 
        the agencies would still need to be addressed. The industry may 
        be willing to pay some sort of application fee if that would 
        help alleviate some of the resource burden. If the agencies are 
        reviewing upwards of 100,000 individual turbine applications 
        per year an application fee would certainly not seem 
        unreasonable to cover costs to increase staff resources.

        2.  Include mitigation discussions in the preliminary analysis
          In addition, the industry strongly recommends that mitigation 
        discussions be required as a part of any early consultation 
        process

        3.  Transparent decision making
          In order for mitigation discussions to be meaningful, 
        however, industry needs to know the rationale for the agency 
        concerns. Some DOD officials have alluded that a primary reason 
        for opposing a project is not an impact the project itself has, 
        but rather the perception that once one project encroaches on 
        an asset of concern then controlling that space from further 
        encroachment is made more difficult. While this concern is 
        understandable, the result is unsustainable and unproductive, 
        and creates an unreasonable threshold when evaluating any one 
        project.

        4.  Protect wind developers' proprietary information
          As DOD acknowledged in its written testimony, developers are 
        concerned about the protection of proprietary information. This 
        is a critical point given the highly competitive nature of the 
        industry. Wind companies are extremely sensitive to the 
        possibility that proprietary development plans could fall into 
        the hands of competitors. Even worse, there have been instances 
        where local DOD officials have taken information voluntarily 
        provided by a developer in early consultations and subsequently 
        used it to oppose the project with local permitting authorities 
        before the consultations had run their course.
          There needs to be protection for confidential business 
        information that is shared with DOD and limitations on what DOD 
        can do with such information.

    Mr. Ortiz. Should the DOD accept a degradation in military 
readiness to support national energy goals relating to wind 
development?
    Mr. Webster. The wind industry respectfully submits that this is a 
false choice. It is our position that there is no need for a trade-off 
between military readiness and deploying wind energy, which itself has 
national security benefits. To the extent there are such concerns 
today, it is because insufficient resources have been invested in 
validating the technical mitigation options that would otherwise be 
available. The appendices in my written testimony detail several of 
these options that, once fully proven effective, should eliminate any 
concerns about trade-offs.
    Mr. Ortiz. What research and development is industry providing to 
support efforts to reduce military readiness conflicts?
    Mr. Webster. AWEA itself is not providing financial resources 
related to R&D, but individual companies are doing so. In addition, 
AWEA is supporting efforts in other ways.
    AWEA has worked with a radar expert to prepare a priority list of 
R&D the industry would like to see done on a radar-by-radar basis. This 
list was included as an appendix to my written testimony. The list grew 
out of a meeting the industry led with the FAA, DOD, DHS, and NOAA on 
the sidelines of an FAA conference in Las Vegas in September 2008. At 
that meeting, industry suggested, and all parties agreed, that it would 
be useful to come up with a joint list of R&D, prioritize the list in a 
way that both industry and agencies agreed with, attach projected 
dollars needed for each item, and then figure out who would do the 
research and how it would be paid for.
    Industry is willing to share some of the costs associated with R&D, 
but we would like the mechanism and amount to be negotiated with the 
agencies based on a jointly developed R&D plan.
    In addition, several AWEA members are engaging in research of their 
own, including wind turbine manufacturers and radar companies. As one 
example, Vestas has been testing stealth blade technology. And, enXco 
and NextEra Energy Resources signed a cooperative research and 
development agreement (CRADA) with the U.S. military to study the 
impact of wind energy development on Travis Air Force Base. Iberdrola 
Renewables has provided access to operating projects for the Department 
of Energy's R&D efforts on gap filling radar technology testing.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. NYE
    Mr. Nye. Can you discuss any radar systems or upgrades to existing 
systems you are aware of today that could mitigate long range radar 
surveillance interference caused by wind farms across the country and 
off the coast of southeastern Virginia?
    Dr. Robyn. There are a number of technological solutions that 
promise to mitigate radar interference, and we're working with the FAA, 
Department of Energy, Department of Homeland Security, and the Office 
of Science and Technology Policy to determine the costs and relative 
benefits of various options such as software changes, ``gap-filler'' 
radars, ``in-fill'' radars, and replacement surveillance radars.
    Mr. Nye. The UK's MOD recently purchased the TPS 77 radar to 
address its long range radar wind farm interference after significant 
research and analysis; do you feel that such a system would be suitable 
for addressing current defense concerns off the coast of southeastern 
Virginia?
    Dr. Robyn. The TPS-77 is one of the options we're evaluating in 
conjunction with the Department of Homeland Security, the Department of 
Energy, and the FAA. We've sent teams to the UK to talk with the MOD, 
and we've had detailed discussions with Lockheed-Martin regarding the 
TPS-77. After comparing the TPS-77 to other mitigation options for wind 
farm interference, we'll determine a way ahead.
    Mr. Nye. Will the DOD be willing to consider additional areas off 
the coast of Virginia for offshore wind development other than those 
previously identified for the Virginia RFI, if they were able to work 
with the developers on a case-by-case basis?
    Dr. Robyn. DoD is working with the Department of Interior's Bureau 
of Ocean Energy Management, Regulation, and Enforcement and coastal 
state agencies on the proposed siting of wind turbines on the outer 
continental shelf. DoD is a member of the Virginia Offshore Wind Task 
Force, and the Department has assessed and identified lease blocks off 
the coast of Virginia where, given appropriate restrictions, wind 
turbines would be compatible with Defense activities such as testing, 
training and operations. DoD also meets on an ad hoc basis with the 
Virginia Governor's Senior Advisor on Energy. We will work with these 
partners to consider any feasible proposal for offshore wind.
    Mr. Nye. Some have suggested that the military should ``train how 
they will fight''--considering that wind farms are popping up all over 
the world, it is inevitable that the U.S. military will need to know 
how to maneuver around them. Does this enter the DOD's consideration 
when looking at potential locations for wind farms off the Virginia 
coast?
    Dr. Robyn. The military services require realistic training 
scenarios, but this does not mean that every condition that may be 
encountered in battle has to be replicated in every training exercise 
and on every range. It's essential that our offshore ranges remain free 
of encroachment to allow our forces to train across the full spectrum 
of air and sea operations. Large areas of sea and air space are 
required to provide safety buffers and maneuver space for at-sea 
training. For example, we conduct live fire training in areas off the 
Virginia Capes (VACAPES), and placing wind turbines in these live-fire 
areas would not be compatible with our training activities. 
Additionally, wind turbines sited in our offshore ranges may create 
electromagnetic interference with training and testing activities. 
Through the Virginia Offshore Wind Task Force process we have 
identified areas where offshore wind can be developed without impacting 
our training and testing activities. It is true that we will have to 
develop tactics, techniques, and procedures for operations in the 
vicinity of offshore wind turbines, but we must also maintain 
sufficient unencumbered offshore ranges, such as the VACAPES, to 
accommodate essential training for our naval and air forces.
    Mr. Nye. Is the FAA willing to look into new technologies that 
might be able to overcome the concerns that wind turbines might cause 
interference with radar?
    Ms. Kalinowski. Yes, the FAA is investigating technologies that 
could reduce or eliminate the radar interference caused by wind farms. 
During FY 2010, the FAA sponsored a Systems Engineering Trade Study to 
examine the possible solutions to the interference problem. The 
research project is being conducted by the Georgia Institute of 
Technology and is nearing completion, with the final report due to the 
FAA by August 30, 2010. The purpose of the trade study was to identify 
all of the possible solutions to the wind farm problem and weigh them 
against cost, technical risk, and time to field. The project brought 
together technical experts from the U.S. Air Force, DHS, and the FAA to 
provide the technical expertise for the trade study.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MRS. HALVORSON
    Mrs. Halvorson I wanted to ask about a proposed wind farm in my 
district in Kankakee County, Illinois, near Chicago, called ``K4,'' 
that is close to a radar system located in Joliet, Illinois.
    K4 is a $2 billion project with 310 proposed wind turbines. The 
nearby ARSR-3 radar is the same as the one near Shepherds Flat. I feel 
the Shepherds Flat radar should not be the only site receiving 
mitigation work; receiving software upgrades and physical improvements.
    My question for Dr. Robyn is: What upgrades can you make to the 
ARSR-3 radars nationwide in order for more wind farms and radars to co-
exist? And, if these upgrades are made, what is a realistic timeline 
for completion?
    Dr. Robyn. The ARSR-3 radars are part of a nationwide upgrade--a 
Service Life Extension Program--to bring all FPS-series, ARSR-1, ARSR-
2, and ARSR-3 systems to a common configuration. According to a study 
by Lincoln Laboratory, that configuration should be able to accept 
software changes to mitigate wind farm interference, and we're 
developing a test plan for the software. We plan to pilot-test the 
hardware-software combination in the next 12-18 months, using the 
Fossil, OR radar as a testbed. Lincoln Lab is currently on track to 
deliver hardware and software to FAA Oklahoma City for test by the end 
of January 2011; the lab's overall goal is to have a test system in 
place at Fossil by April 2011. If the pilot test is successful, we can 
deploy the adaptive clutter map during the Service Life Extension 
Program; Lincoln Lab has confirmed that the software will be compatible 
with the Joliet radar, and should mitigate wind farm interference from 
K4.
    Mrs. Halvorson How up-to-date is DOD's land cover/terrain modeling 
data? Is DOD looking at areas with the same land cover information as 
they were in 1990, not taking into account any of the new structures 
that have since been built between radar's line of sight and existing/
proposed wind farm locations? If not, has there a reason prohibiting 
DOD from obtaining newer or more up-to-date land cover/terrain modeling 
data?
    If you start using data from 2000 or later instead, do you think 
more wind projects would gain approval?
    Dr. Robyn. DOD has the most current terrain data available, and 
we're currently double-checking to ensure our wind farm impact modeling 
uses the most current data; we expect to have the re-look complete by 
the end of October, 2010. However, because radar interference is caused 
by complex factors such as the Doppler effect, we don't expect post-
1990 land cover information to significantly change our assessment 
process.
    Mrs. Halvorson In regards to the Shepherds Flat wind farm in 
Oregon, DOD originally issued a ``Notice of Presumed Hazard'' in March. 
When DOD eventually withdrew its objections in to the Shepherds Flat 
project in late April, a DOD spokesperson said that the impact of the 
project to the Fossil ARSR-3 radar was not as great as once thought.
    Is it possible for this scenario to be the case again for other 
projects elsewhere? Can you provide detail as to what information was 
available in regards to how this particular wind farm was originally 
thought to be hazardous, and what information later came to light that 
led DOD to retract their objections?
    Dr. Robyn. As we develop more robust modeling and assessment 
tools--something we're doing internally and in conjunction with the 
Department of Homeland Security, the Department of Energy, the FAA, and 
the Office of Science and Technology Policy--our analysis will become 
more refined and our final assessments may therefore change. As we 
closely examined the project in April, we concluded that the risks 
presented by Shepherds Flat would not be as severe as initially 
thought, and extensive study by MIT's Lincoln Laboratory and a number 
of DoD entities confirmed that conclusion. Furthermore, we were able to 
apply the Lincoln Lab results to eight additional wind farm 
applications in Oregon and Washington, and those wind farms can now 
receive FAA approval. We have already provided briefings on the Lincoln 
Lab study to various Members of Congress and staff members, and would 
gladly provide you with the same.
    Mrs. Halvorson More broadly, with the President's commitment to 
renewable energy and growing number of wind farm project proposals 
nationwide, what is the department's long term strategy for co-
existence between the nation's national security and renewable energy 
needs?
    Dr. Robyn. In my June testimony, I stated that first, the federal 
government needed to improve the process for reviewing renewable energy 
projects; second, the key federal agencies needed to realign their R&D 
priorities to give greater attention to the issue; and third, those 
agencies needed to look at the plan for upgrading the current 
surveillance radars.
    Addressing the first point, the Department is standing up an 
office--an Energy Siting Clearinghouse--specifically to address the 
balance between military readiness (which includes operations, testing, 
and training) and energy independence, which are both important facets 
of national security. The Clearinghouse will coordinate among the 
Offices of the Deputy Under Secretaries of Defense for Installations 
and Environment and for Readiness, the Assistant Secretary of Defense 
for Homeland Defense, the Director of Test and Evaluation, the Joint 
Staff, the Service Secretariats, and the Service Staffs, and will serve 
as a ``one-stop shop'' for all inquiries and staff actions regarding 
utility-scale generation and transmission projects. I hired the 
director on July 26, and in mid-September we executed contracts to hire 
staff, procure IT support, and facilitate timely communication with the 
FAA, other governmental entities, and industry.
    Regarding R&D priorities, we're participating in an OSTP-led task 
force that's examining the current state of play across the 
interagency. Its preliminary report--a five-page outline of current 
efforts--is due in December 2010, and will inform our future R&D 
efforts. Finally, we're working with DHS on the upgrade plan. The first 
step will be to pilot-test Lincoln Laboratory's recommended mitigation 
measures over the next 12-18 months, using the Fossil, Oregon radar as 
our ``testbed'' (this improvement would not otherwise occur until 2014-
2015, as part of the scheduled CARSR upgrade of the Fossil radar). 
Lincoln Lab is currently on track to deliver hardware and software to 
FAA Oklahoma City for test by the end of January 2011; the lab's 
overall goal is to have a test system in place at Fossil by April 2011.
    Mrs. Halvorson. Is there a possibility that DOD might be 
overestimating the capability of its ARSR-3 radar in its analysis of 
wind farm projects? If so, what efforts might be undertaken to 
compensate for these misgivings?
    Dr. Robyn. The ARSR-3 has been in service since the 1970s, and its 
capabilities are well understood. Our current efforts, in conjunction 
with those of our interagency partners, are focused on developing 
modeling tools for wind farm impacts and assessing a number of 
technological options for mitigating those impacts.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BLUMENAUER
    Mr. Blumenauer. Wind energy projects not only supplement a growing 
demand for clean power, they also contribute billions of dollars to the 
tax base of rural counties in Oregon, create hundreds of jobs for local 
businesses, and generate income for landowners that often is critical 
to keeping their family farms alive. Unfortunately, as demand for wind 
power continues to grow and more projects spring up around the country, 
conflicts have started to occur.
    Earlier this year, the Department of Defense concerns led to the 
delay of two wind projects in my state due to issues relating to a 
radar in Fossil, Oregon. These two projects were weeks away from 
commencing construction and developers had already invested a great 
deal of funding in them when the Department raised these concerns. The 
Department's initial suggested mitigation proposal was for the two 
developers to move all of their turbines some distance away. This 
infeasible approach would have terminated the projects and resulted in 
devastating economic losses to our local communities. I was pleased to 
see that the Department allowed the projects (Caithness' Shepherds Flat 
and Iberdrola Renewables' Leaning Juniper II wind farms, both in 
Gilliam County) to proceed this spring.
    Already there are several hundred additional megawatts of wind 
power planned to start construction before the end of 2010 in the same 
area of Oregon that has proximity to the Fossil radar. These projects 
must stay on deadline for eligibility in a grant program established by 
the ARRA. However, I understand that one of the projects slated to 
begin construction at the end of this year is now being held up for the 
very same concerns Defense Department originally raised when it opposed 
the Shepherds Flat and Leaning Juniper II projects. In particular, the 
developer of a nearby project (Iberdrola Renewables' Montague project) 
is being told that the only acceptable mitigation is to move all the 
turbines.
    While I recognize and understand the importance of ensuring that 
military operations are not compromised, I believe we must find a way 
for the wind industry and the military to co-exist. In your testimony, 
you discussed the Massachusetts Institute of Technology Lincoln 
Laboratory study that identified and evaluated options for mitigating 
the impact of wind turbines on the QVN radar in Fossil, Oregon. This 
study helped increase the Department's comfort level with the 
Shepherd's Flat project and others in the area. Can the techniques 
recommended by the Lincoln Lab study also be used to mitigate the 
impact of the Montague project? If not, please describe the 
Department's justification for holding up these additional turbines and 
provide a timeline for addressing the situation. Please also provide my 
office with a full copy of the Lincoln Lab study.
    Dr. Robyn. At my request, Lincoln Lab analyzed the proposed 
Montague project using the same data/approach it used for Shepherds 
Flat (the two sites are within a mile of one another). The results were 
the same, and I informed your office of our recent decision to green-
light Montague, five additional sites in Oregon, and two in Washington. 
The key Lincoln Lab recommendation (Option 2) calls for adding an 
auxiliary processor with an adaptive clutter map. As I said in my oral 
statement on June 29, we hope to do this on a pilot basis over the next 
12-18 months, using the Fossil, Oregon radar as our ``testbed'' (this 
improvement would not otherwise occur until 2014-2015, as part of the 
scheduled CARSR upgrade of the Fossil radar). Lincoln Lab is currently 
on track to deliver hardware and software to FAA Oklahoma City for test 
by the end of January 2011; the lab's overall goal is to have a test 
system in place at Fossil by April 2011.
    Mr. Blumenauer. The Defense Department has acknowledged the 
national security and strategic challenges associated with global 
warming and our dependence on fossil fuels. I have been impressed by 
the aggressive actions the Department is undertaking to reduce its own 
energy use and explore the use of renewable energy. It would seem that 
it is in the Department's interest to facilitate development of the 
nation's wind resources. Since wind-radar conflicts appear to be a 
growing problem, I am pleased that the Department is taking steps to 
minimize these conflicts, including altering and upgrading existing 
radars. I understand that funding may be a hurdle in completing these 
upgrades. Is there a mechanism for a wind developer to contribute funds 
to the upgrading or relocation of a radar if it will reduce or 
eliminate wind turbine-radar conflicts? If not, does the Department 
need statutory authority to allow contributions from project 
developers?
    Dr. Robyn. The Department is not certain it has clear legal 
authority to accept such contributions; we've been working with 
professional staff and NGOs to develop language that would clearly 
grant that authority.
    Mr. Blumenauer. I understand that the FAA currently requires wind 
project developers to file separate applications for each turbine 
proposed to be included in a project. I'm also told that the FAA 
discourages developers from submitting applications until the developer 
has made a final decision as to the exact location of each turbine. If 
true, this approach seems not only burdensome for the FAA and project 
developers, but it doesn't give developers and the government enough 
lead-time to mitigate late-breaking concerns that are raised by the FAA 
or DOD. One way to provide flexibility and reduce the burdensome nature 
of processing applications for all parties involved may be for the FAA 
to accept one application per wind project with an estimate as to the 
approximate location, number, and height of all turbines. Is this 
something that the FAA has considered? Would making this change in the 
application process require a change in statute?
    Ms. Kalinowski. An aeronautical study looks at the exact 
coordinates and height of the proposed structure and determines if 
there are any impacts to radar cells. If the locations and height of 
the structure are changed, the impact could be more severe and must be 
analyzed again. If estimates were provided, the FAA and the DOD would 
not have exact data to perform a comprehensive analysis. Some turbines 
in an area may be acceptable and others may not because of the number 
of radar cells that may be affected. At present, the FAA needs to study 
each individual turbine and not proposed areas. In addition, the DOD 
cannot study geographic areas and must know exact locations to 
determine impacts to radar.
    A change of this nature would require a regulatory change, as the 
current regulations require each structure to be filed separately with 
the FAA. A regulatory change would require a minimum of three years to 
complete.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
